<html>
<title> - DEMOCRACY IN THE CENTRAL ASIAN REPUBLICS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




65-201 CC

2000

                DEMOCRACY IN THE CENTRAL ASIAN REPUBLICS

=======================================================================

                             JOINT HEARING

                               before the

     SUBCOMMITTEE ON ASIA AND THE PACIFIC AND THE SUBCOMMITTEE ON 
               INTERNATIONAL OPERATIONS AND HUMAN RIGHTS

                                 of the

                  COMMITTEE ON INTERNATIONAL RELATIONS

                        HOUSE OF REPRESENTATIVES


                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                       WEDNESDAY, APRIL 12, 2000

                               __________

                  Committee on International Relations

                           Serial No. 106-116

                               __________

    Printed for the use of the Committee on International Relations


   Available via the World Wide Web: http://www.house.international--
                               relations

                                 ______


                    U.S. GOVERNMENT PRINTING OFFICE
                         WASHINGTON : 2000


                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado

                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                  Subcommittee on Asia and the Pacific

                   DOUG BEREUTER, Nebraska, Chairman
JAMES A. LEACH, Iowa                 TOM LANTOS, California
DANA ROHRABACHER, California         HOWARD L. BERMAN, California
PETER T. KING, New York              ENI F.H. FALEOMAVAEGA, American 
MARK SANFORD, South Carolina             Samoa
MATT SALMON, Arizona                 MATTHEW G. MARTINEZ, California
JOHN McHUGH, New York                SHERROD BROWN, Ohio
RICHARD BURR, North Carolina         ROBERT WEXLER, Florida
PAUL GILLMOR, Ohio                   JIM DAVIS, Florida
DONALD A. MANZULLO, Illinois         EARL POMEROY, North Dakota
EDWARD R. ROYCE, California          GARY L. ACKERMAN, New York
JOHN COOKSEY, Louisiana              ALCEE L. HASTINGS, Florida

             Michael P. Ennis, Subcommittee Staff Director
         Dr. Robert King, Democratic Professional Staff Member
                         Matt Reynolds, Counsel
                  Alicia A. O'Donnell, Staff Associate
                                 ------                                

       Subcommittee on International Operations and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
WILLIAM F. GOODLING, Pennsylvania    CYNTHIA A. MCKINNEY, Georgia
HENRY J. HYDE, Illinois              ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
CASS BALLENGER, North Carolina       EARL F. HILLIARD, Alabama
PETER T. KING, New York              BRAD SHERMAN, California
MATT SALMON, Arizona                 WILLIAM D. DELAHUNT, Massachusetts
THOMAS G. TANCREDO, Colorado         GREGORY W. MEEKS, New York
            Grover Joseph Rees, Subcommittee Staff Director
                      Douglas C. Anderson, Counsel
                Peter Hickey, Democratic Staff Director
                  Nicolle A. Sestric, Staff Associate


                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

Donald L. Pressley, Assistant Administrator, Bureau for Europe 
  and Eurasia, U.S. Agency for International Development.........     5
Dr. Martha Brill Olcott, Senior Associate, Carnegie Endowment for 
  International Peace, and Professor of Political Science, 
  Colgate University.............................................    15
Mr. Paul Goble, Director of Communications, Radio Free Europe/
  Radio Liberty..................................................    21
Ms. Cassandra Cavanaugh, Researcher, Human Rights Watch..........    25

                                APPENDIX

Prepared statements:

Mr. Donald L. Pressley...........................................    42
Dr. Martha Brill Olcott..........................................    54
Mr. Paul Goble...................................................    71
Ms. Cassandra Cavanaugh..........................................    78
The Honorable Christopher H. Smith, a Representative in Congress 
  from New Jersey................................................    82
The Honorable Dana Rohrabacher, a Representative in Congress from 
  California.....................................................    83

Additional material:

A letter to Secretary of State Madeleine Korbel Albright 
  submitted to the by Hon. Christopher H. Smith..................    86
Documents submitted to the record by Ms. Cavanaugh...............    91
A statement for the record submitted by Hon. Eni Faleomavaega, a 
  Delegate from American Samoa...................................    85

 
                DEMOCRACY IN THE CENTRAL ASIAN REPUBLICS

                              ----------                              


                       WEDNESDAY, APRIL 12, 2000

        House of Representatives, Subcommittee on Asia and 
            the Pacific, joint with the Subcommittee on 
            International Operations and Human Rights, 
            Committee on International Relations,
                                                    Washington, DC.
    The Subcommittees met, pursuant to notice, at 1:30 P.m., in 
room 2172, Rayburn House Office Building, Hon. Doug Bereuter 
and Hon. Christopher Smith [Chairmen of the Subcommittees] 
presiding.
    Mr. Bereuter. The Subcommittees will come to order. I am 
going to proceed with an opening statement, assuming that the 
Ranking Democrat Member, Mr. Lantos, will be here shortly, and 
in order to expedite the process today, I will begin.
    The Asia and the Pacific Subcommittee meets today together 
with representatives of the Subcommittee on International 
Operations and Human Rights in open session to receive 
testimony in the progress toward democracy in the Central Asian 
Republics, after which we will move to a markup of H. Con. Res. 
295, a resolution regarding Vietnam's human rights and 
political opposition which was introduced by Mr. Rohrabacher 
and many of our colleagues.
    In March of last year, the Asia Subcommittee held a hearing 
on the challenges facing U.S. foreign policy in the Central 
Asian Republics. Today's hearing will examine how U.S. policy 
has been implemented and the effectiveness of our efforts to 
bring democracy to a region that has a history of authoritarian 
rule.
    With the collapse of the Soviet Union in 1991, five 
independent states--Kazakhstan, Kyrgyzstan, Tajikistan, 
Turkmenistan, and Uzbekistan--rose in Central Asia. The 
desert's mountain steppes and river valleys in this region are 
home to 50 million people. State borders which were imposed by 
Stalin artificially partition and breed resentments among 
various large ethnic groups, principally the Russians, Uzbeks, 
and Tajiks.
    Long-term uncertainties and incomplete understanding of the 
region, uneven political and economic progress in the five 
republics, other global exigencies, and, I believe, indecision 
regarding the real import of U.S. interests vis-a-vis other 
priorities have resulted in a largely fractured U.S. policy 
toward the region and the relegation of these states to a 
policy backwater.
    However, America's relative inattention to Central Asia, I 
think, appears to be slowly changing. At the end of this week, 
the Secretary of State embarks on her first trip to the region.
    The Central Asian states are at a critical juncture in 
their political and economic development, balanced between 
democracy and authoritarianism, between free market economy and 
systemic corruption, between cooperation with or resistance to 
the West. In short, the region is poised between merging into 
or retreating from the Free World.
    Of all of the Soviet republics, it is certainly arguable 
that those in Central Asia were least prepared for 
independence. Indeed, each state today still faces three 
fundamental challenges. First, they must forge a shared 
national identity from a legacy of intermingled ethnic and 
religious groups and convoluted borders.
    Second, the Central Asian republics must institutionalize 
both at and below the national level political and legal 
structures and attitudes that are compatible with democracy.
    Third, they must create a free and open economic system, a 
radical departure from the Soviet past.
    Unfortunately, Central Asia appears to be moving along the 
path of authoritarianism. While in recent months each of the 
five countries have conducted general elections, these 
elections varied in the degree of electoral freedom, however, 
in no case did any of these elections adhere to internationally 
accepted norms. Indeed, most remained reminiscent of Soviet-
style elections.
    The world has witnessed the decertification of opposition 
parties and, in some cases, the apprehension of opposition 
leaders. The State Department's current reports on human rights 
practices for 1999 concluded that Presidential power in 
Kazakhstan and Kyrgyzstan overshadows legislative and judicial 
powers, and that Uzbekistan, Turkmenistan, and Tajikistan have 
lost ground in democratization and respect for human rights.
    This continued decline is very disturbing and raises 
questions about the ability of the United States to 
successfully encourage true democratic institutions and the 
rule of law in the region.
    It is primarily for this reason that I have scheduled this 
hearing. This is not a human rights hearing, yet fundamental 
human rights are a key component of any progressive democratic 
country.
    We look forward to testimony which will address not just 
the current state of democracy in the region, but what, in the 
witness' opinion, the Federal Government and the Congress can 
do to reverse these negative trends that are so prevalent in 
the Central Asian republics.
    I would tell our witnesses that the Subcommittee comes to 
this hearing with no specific prescriptions. The purpose is not 
to focus criticism on the Administration for any particular 
action it may or may not have taken. Rather, this is part of 
our duty to conduct our congressional oversight 
responsibilities where the executive branch's efforts are not 
yielding the desired results. It is simply that Central Asia 
has been too long neglected or ignored.
    This hearing seeks, in part, to remedy that shortcoming and 
begin to put American foreign policy for the region on a more 
appropriate course.
    The Subcommittee is privileged today to have two excellent 
panels of experts on Central Asia. Testifying for the 
Administration is Mr. Donald Pressley, Assistant Administrator 
of the U.S. Agency for International Development for Europe and 
Eurasia.
    A career Foreign Service officer, Mr. Pressley has served 
the Agency for International Development in a number of 
capacities in a career that has extended over 25 years. Mr. 
Pressley is uniquely positioned to explain how the United 
States has sought to promote democracy in the region, where we 
have been most successful and where we have failed.
    Mr. Pressley, I am particularly interested in your 
assessment of what the impact of the passage of the so-called 
``Strategy of 1999'' has had on U.S. policy toward the Central 
Asian region. I imagine, since it was passed so recently, it 
will be relatively small, but perhaps you could give us an 
indication of what you expect.
    We are also honored to have a second panel of imminently 
qualified witnesses. I am also pleased then, therefore, to 
introduce Dr. Martha Olcott. She is a Professor of Political 
Science at Colgate University. Dr. Olcott is a specialist in 
Central Asian affairs and inter ethnic relations in the Soviet 
successor states, and a Senior Associate of the Carnegie 
Endowment for International Peace. Dr. Olcott co-directs the 
Carnegie Moscow Center's Project on Ethnicity and Politics in 
the former Soviet Union. As such, she organizes seminars, 
conferences and publications on the ethnic conflicts in the 
Soviet successor states and on regional conflicts within 
Russia. It is my understanding that Dr. Olcott has only 
recently briefed Secretary Albright regarding her upcoming 
visit to the region.
    Next, Dr. Paul Goble, Director of Communications and 
Technology at Radio Free Europe/Radio Liberty. Earlier, he 
served as a Senior Associate at the Carnegie Endowment for 
International Peace. Special Advisor for Soviet Nationality 
Problems and Baltic Affairs at the State Department, Director 
of Research at Radio Liberty, and Special Assistant for Soviet 
Nationalities in the Department of State's Bureau of 
Intelligence and Research. Dr. Goble has appeared before the 
International Relations Committee before on a number of 
occasions, but this is his first appearance, I believe, before 
the Subcommittee on Asia and the Pacific.
    Finally, Ms. Cassandra Cavanaugh served on the staff of the 
New York office of Human Rights Watch where her 
responsibilities extended to the Caucasus and Central Asia. Ms. 
Cavanaugh is a doctoral candidate at the Columbia University, 
and has previously served as Program Officer for Uzbekistan and 
Tajikistan for the International Research and Exchange Board.
    As is consistent with the policy of the Subcommittee, in 
both panels, your entire statements will be made a part of the 
record, and we will appreciate if you could proceed in 
approximately 10 minutes or so. You may read or summarize your 
presentations as you see fit.
    I would turn next to the Ranking Member from California, 
but he is not here at this point. He will be joining us as soon 
as possible. We do have another Californian here, a senior 
colleague on the Subcommittee, Mr. Rohrabacher of California. 
Do you have any opening comments?
    Mr. Rohrabacher. I will make it short, but when you said 
Ranking Member from California, I thought I had been both 
promoted and demoted at the same time.
    I have spent considerable time in this part of the world, 
and I frankly am disappointed at what has happened in these 
last 8 years. I think that what we have now in Central Asia is 
opportunity lost and, if not lost, almost lost.
    Obviously, the people on the scene did not take our 
admonitions about free elections and human rights seriously 
because they have all slipped back into their old ways--if not 
all the way back, at least they are going in that direction. 
That is what it seems from a distance. I am looking forward to 
your testimony on this.
    But the last round of elections in the region were 
insulting. They were insulting to us who have tried to work 
with the various governments in the region to try to establish 
personal rapport with some of the leaders and, instead, for 
lack of a better word, they ``shined'' us on, and it was a 
total disregard for honesty and the basic fundamentals of 
democratic and free elections.
    This area will not prosper and it will not live in peace if 
it does not have freedom. If there was anything we learned 
during the Reagan years, it is that freedom and peace go 
together, and if you have despots continue to dominate these 
countries that have such incredible potential, you will not 
have the prosperity and the stability which we seek for the 
region and which the people there have longed for, for so long.
    One last element is, of course, the element of Afghanistan, 
which I think, if you take a look at that map, the entire 
Central Asia is pivoting right there on Afghanistan, and I will 
renew my charge that there has been a covert policy by this 
Administration of supporting the Taliban in Afghanistan despite 
their brutality and their violations of the rights of women, 
despite the fact that they harbor terrorists. This 
Administration has refused to give me the documents necessary 
to prove or disprove this charge, but in the documents, Mr. 
Chairman, that I have examined, there has already been clear 
evidence that the charge that I made was accurate and yet they 
still kept away from my office the records of 2 full years of 
communications, which are the central years that I have been 
asking. For several years now I have been making this request 
as a senior Member of International Relations Committee. They 
have kept those documents from that time slot away from my 
office and prevented us from doing the oversight we feel is 
necessary.
    With a regime in Afghanistan like the Taliban--anti-
Western, making hundreds of millions of dollars off the drug 
trade, involving the training and base areas for terrorists--
that is a destabilizing force for the whole region, and this 
Administration, I think, bears full responsibility for whatever 
deals it has cut with whichever powers, whether they be 
Pakistan or Saudi Arabia or whoever the deal was cut with for 
this Taliban policy. The historians will note that it is this 
Administration's fault for cutting such a corrupt deal.
    So, with that said, I look forward to your testimony as to 
the status quo, and some predictions about what is going to 
happen in the future there in Central Asia.
    Mr. Bereuter. Thank you very much, Mr. Rohrabacher.
    As we begin, I should explain that I am involved in a 
contentious markup in the Banking Committee that is going on 
simultaneously, and if I leave here abruptly it is only to go 
cast a recorded vote and I will have to turn it over to Mr. 
Rohrabacher or someone else.
    Mr. Rohrabacher. Then you are really in for it.
    Mr. Bereuter. Mr. Pressley, we are very pleased that you 
accepted our invitation to testify today. You may proceed as 
you wish.

   STATEMENT OF DONALD L. PRESSLEY, ASSISTANT ADMINISTRATOR, 
 BUREAU FOR EUROPE AND EURASIA, U.S. AGENCY FOR INTERNATIONAL 
                      DEVELOPMENT (USAID)

    Mr. Pressley. Mr. Chairman, Mr. Rohrabacher, thank you for 
inviting me here today to discuss USAID's efforts in democracy-
building in Central Asia. I have submitted my prepared 
testimony for the record and will just summarize my remarks.
    Without question, promoting democracy in the five Central 
Asian Republics of Kazakhstan, Kyrgyzstan, Uzbekistan, 
Tajikistan, and Turkmenistan is one of the most difficult 
challenges USAID faces in Europe and Eurasia. Still, the 
difficulty of the challenge should not deter us--I am sure that 
you agree that democracy in and of itself is a worthy goal. In 
Central Asia, it is also of particular important to U.S. 
national interests.
    Mr. Chairman, 2 years ago, I testified before this 
Subcommittee on the then-pending Silk Road Strategy 
legislation, which authorizes support for the economic and 
political independence of the countries of the South Caucasus 
and Central Asia.
    I said then, and it is just as true today, that the 
overarching goal of U.S. foreign policy with regard to the five 
republics is to promote stable, democratic, market-oriented 
development, so that these independent states are able to 
prevent conflict and the expansion of global threats, and to 
ensure fair access to the region's substantial oil, gas and 
mineral resources.
    Moreover, we continue to believe that as these countries 
become more democratic and prosperous, commercial opportunities 
will increase, and we expect inclinations toward civil strife, 
and arms and drug trafficking will decrease. Widespread citizen 
participation in the economic, political, and social aspects of 
these societies is fundamental to achieving and maintaining 
such democracy and prosperity.
    Unfortunately, there have been mixed results in achieving 
the laudable goals of the Silk Road Strategy. Transition to 
democracy and open markets in the Asian republics of the former 
Soviet Union has proven to be a very complex undertaking.
    Democratic progress has been uneven, at best. People, used 
to fearing their government, do not yet trust it.
    While civil society and the nongovernmental sector are 
growing, there are still no guarantees of freedom of speech and 
association. There are still insufficient transparent and 
democratic processes to support the rights of citizens as 
opposed to suppressing the rights of citizens.
    Parliamentary and Presidential elections in each country 
have been severely flawed. Electoral institutions, such as they 
are, have not contributed to democratic reform in a substantial 
way. This situation is exacerbated by pervasive corruption and 
the widespread abuse of human rights. Even so, we still believe 
U.S. assistance programs can accomplish significant results.
    Past experiences in Bulgaria and Romania and more recent 
events in Slovakia and Croatia tell us that grassroots 
initiatives can create a demand for reform.
    The most important aspect of our strategy for Central Asia 
is an increased emphasis on individuals and communities and the 
institutions that nurture and serve them. We are working hard 
to instill democratic skills and practices in local 
organizations and governments. We are trying to reach the 
younger generation through civic education.
    As you know, Mr. Chairman, as Mr. Rohrabacher has just 
pointed out, the human rights records of the Central Asian 
governments are poor, especially those of Turkmenistan and 
Uzbekistan. Therefore, our work with human rights NGO's 
emphasizes developing the skills to fight for increased 
government accountability. For instance, we share information 
on international human rights norms in NGO civic education 
classes, and we educate women in their legal rights.
    Corruption is another deep-seated problem in Central Asia. 
USAID's approach to combating corruption is primarily ``bottom 
up'', i.e., starting with citizen awareness and participation 
and working up to someday hope for real policy change. It cuts 
across all sectors of assistance. Our primary thrust is to 
introduce the modern concepts of accountability and 
transparency. These two concepts, of course, go hand-in-hand 
with democracy.
    On page 6 of my written statement, I note more specifically 
what we are doing in this area. But, basically, within our 
modest means, USAID's efforts to address corruption in Central 
Asia are broad and multifaceted, befitting the depth and 
pervasiveness of the problem. As with so many other aspects of 
our program, it is a long-term endeavor.
    USAID's core strategy in democracy-building includes 
strengthening the political process, and civil society, 
promoting an independent media and, as I have said, making 
governments more accountable to the people. But our other work 
in economic reform, enterprise development, health care, et 
cetera, also has the impact of fostering democratic values and 
practices. For example, a micro-credit council learns 
organization, consensus-building, accountability through 
voting, leadership skills and other important skills that are 
integral to a functioning democracy. Local water associations 
or self-regulating organizations also incorporate all the 
elements that open people's eyes to what it really means to 
function as a democracy.
    While there is clearly much more to do, at USAID we are 
proud of what our programs have been able to accomplish despite 
the many challenges we face in Central Asia. On page 8 of my 
written statement, I have included several examples. But for 
now let me just say that civil society is growing in magnitude 
and sophistication in all five countries, with citizens' 
organizations now numbering over 3,000. Over 100 independent TV 
stations have increased the professional quality and quantity 
of news reporting. Local governments, particularly in 
Kazakhstan and Kyrgyzstan, are learning to be more responsive 
and accountable to their citizens. All types of groups are 
organizing and solving problems locally. People are learning 
about their rights and developing the skills to take 
appropriate action. These are the building blocks for change. 
These activities are creating a culture for democracy.
    Mr. Chairman, as I have indicated, USAID is making headway 
in supporting civil society in Central Asia. But we must be 
realistic. This is a tough place to work. The dismal human 
rights records of this region underscores the autocratic nature 
of these governments; corruption levels suggest how little 
respect there is for the rule of law. Change in Central Asia is 
a long-term process as these countries are still grappling, as 
you noted earlier, with the realities of being new nations 
while simultaneously addressing the basic issues of 
development--poverty, declining health standards, and a lack of 
economic growth.
    Still, this region is important to the United States and, 
therefore, it is important to stay engaged. Our experience 
tells us it is worth the effort. The grassroots approach 
embodied in the USAID assistance strategy is making a 
difference in the lives of individuals and communities. 
Progress comes one step at a time, but in the end we believe 
true reform will arrive. Until then, we must keep working.
    Thank you, and I welcome your comments and questions.
    [The prepared statement of Mr. Pressley appears in the 
appendix.]
    Mr. Bereuter. Thank you very much, Mr. Pressley. I think 
that, since we only have two of us here at this moment, we are 
going to proceed under the 10-minute rule so we can develop any 
kind of thought process a little bit better.
    Mr. Pressley, I wonder if you would tell me, or reiterate 
for me for the record here, what are the primary objectives of 
USAID at this moment for the five Central Asian republics?
    Mr. Pressley. Our strategy for Central Asia focuses on four 
areas--broad economic growth through private enterprise 
development; instilling democratic values and principles and 
developing the NGO's, the nongovernmental organizations to set 
that out; working with those countries to develop their water 
and energy resources which are so important in that part of the 
world for them to develop their own economic well being; and 
developing at the local government level those skills and those 
practices that in turn should some day lead to the kind of 
democracy that we believe are important in that part of the 
world.
    Mr. Bereuter. Since we start here with no tradition or no 
substantial tradition of democracy and democratic 
participation, the later point, of course, would seem to be an 
appropriate place--the ``bottoms up'' effort in where you are 
starting basically with no substantial democratic tradition.
    It would seem to me that ability to communicate with the 
population, diverse points of view would be essential. Tell me 
what the situation is, in your judgment, and what, if any, 
concentration of resources there are. Address, too, an open and 
uncontrolled media.
    Mr. Pressley. The situation with an independent media in 
Central Asia is quite sad, actually. We have seen in all five 
countries that there is interference with media, that the 
countries and governments still do not respect the rights of 
the media and do not understand the important role that they 
can play.
    Through one of our nongovernmental organizations, Inter 
News, we have mounted a major program. In each country Inter 
News has legal advisors who are helping these media outlets to 
exercise the rights that they do have, and to push and advocate 
and urge for additional freedom of expression and the ability 
to work in a broad way.
    Here, as in other cases, we are working with these 
independent media outlets so that they can develop the skills 
to associate among themselves, to form consensus, to speak out 
and advocate for change. So, we have mounted an intense program 
to support independent media in Central Asia.
    Mr. Bereuter. To what extent are international or locally 
developing NGO's active in that area?
    Mr. Pressley. It is still an area that is quite nascent 
but, as I mentioned earlier, now we have over 100 independent 
TV stations that are operating in the region. These are quite 
small and quite unsustainable, I must say, in many ways, but 
they are developing and we are seeing progress over the years, 
and we think this is in, again, an area where we should really 
stay the course and continue to support them.
    Mr. Bereuter. That is encouraging to hear. I have had a 
delegation visiting with me about the print media and the 
difficulties of actually getting the printing presses necessary 
to distribute their version of the news, their political agenda 
on a newspaper basis in at least one of these countries, and I 
suspect it is a more common problem than just one country. What 
do we do about the situation where they simply lack the ability 
to take the printed word to the population of the region?
    Mr. Pressley. Again, we have programs that support print 
media. I don't know the specific instance that you are 
referring to, sir, but in some ways the electronic media seems 
to be the area where we have the greatest opportunity and, on 
balance, we have emphasized our programs more with radio and TV 
because of the widespread ability to get out to the rural areas 
that those two approaches have. So we have put the relative 
emphasis on those kinds of programs.
    Mr. Bereuter. Mr. Pressley, moving to another area, one of 
the things we hear from these governments and people in those 
countries is the urgency of having foreign, especially in 
American investment in the region. But so many American and 
foreign firms have had difficulty with the violation of the 
contracts in very obvious and costly ways.
    With corruption so endemic in the region, do you think 
there is some way to effectively convince countries--and I will 
just say Kazakhstan is one where we have a particular problem--
and to understand that what they do and how they treat foreign 
firms, including American firms--which has a big impact on the 
willingness of other firms to make investments--and to 
establish an ongoing trade relationship? What do we do. Do we 
condition aid in any fashion? How do we get the point across? 
It seems like we are not having much success with the normal 
kind of discussions and negotiations.
    Mr. Pressley. Actually, the level of assistance that we are 
able to provide to Central Asia is quite small in terms of 
their economies and the areas that they are focusing in. 
Kazakhstan, as a prime example, is very interested in the oil 
wealth that it potentially has and is working with American 
companies in that sector, and so in some ways, being open to 
private investment in the oil sectors where they are focusing 
most of their attention. I honestly don't think conditioning 
the kinds of levels of assistance that we are able to provide 
will work very well there.
    Mr. Bereuter. Would it be more appropriate, if we decided 
to do this, to focus on resources from some of the multilateral 
institutions because we don't have that much involved 
ourselves--the IMF, for example, the World Bank in particular?
    Mr. Pressley. Throughout this region, we have worked very 
closely with the IMF and the World Bank to come up with 
appropriate conditions that do make sense for those 
multilateral organizations, and I think that is an area where 
conditions do make sense and where you have the kind of 
government and government programs that you get the leverage 
that you are looking for.
    If I could just continue, one of the lightning rods that we 
have supported is the Central Asia-American Enterprise Fund 
which is investing in these countries, and it has been a 
tremendous struggle, but through its struggles we have learned 
where the points of interface and problems are, and we have 
been able to go back to these governments and to urge the kind 
of policy change that would allow the Enterprise Fund to try to 
attract more investment and to try to operate better.
    Out of the five countries, Kazakhstan and Kyrgyzstan have 
the best opportunity for that. We have been virtually unable to 
operate in Turkmenistan, Tajikistan, and Uzbekistan in a way 
that really makes sense. So we are trying to focus in 
Kazakhstan and Kyrgyzstan, but even there it is a tough 
environment for American investment, and the Enterprise Fund 
stands out as an example of where Americans are trying to use 
actual investments to make policy change.
    Mr. Bereuter. Mr. Pressley, I want to mention at this point 
that I would like to ask about an opposition leader in 
Kyrgyzstan. I think you are not the right person to address 
this to, but a man named Kulov was actually apparently taken 
from a hospital room and imprisoned. I am going to ask the 
State Department to give us an account of that.
    My final question is an open-ended one for you, Mr. 
Pressley, and that is if you could make a change or give an 
additional priority to a particular program that is aimed at 
our broad agenda of promoting democracy, rule of law, and human 
rights in that region, what would you recommend to the 
Congress? What changes would you like to see made?
    Mr. Pressley. I believe that we do have the best 
opportunity in the grassroots approach in the civil society 
work. If I could emphasize the role that nongovernmental 
organizations play in that part of the world, that is where I 
would put the emphasis.
    It doesn't require necessarily a lot more funding because 
there is an absorptive issue here and you have to take it step-
by-step. But in terms of the support that the Congress gives to 
the work that USAID and the U.S. Government is doing, I think 
your acknowledgement that it is a long-term issue, that 
grassroots does make sense, would be very helpful to us as we 
deal with those governments and continue to push for allowing 
that kind of civil society to grow and foster in that part of 
the world.
    Mr. Bereuter. My red light has not come on yet, so I want 
to ask you, to what extent the European Union is putting in aid 
now as compared to our own and your own impressions, and to 
what extent we coordinate our effort?
    Mr. Pressley. The European Union has not focused very much 
on Central Asia. I work very closely with the European Union's 
assistance program in this part of the world, it is called 
TACIS, and I was just in Brussels 3 weeks ago meeting with the 
Director of this organization, and they do have programs there 
and we do coordinate but, relatively speaking, they are 
focusing much more on Central Europe and the countries that are 
closer to accession into the European Union. So once again, the 
United States is the donor, is the country that these countries 
are looking to for assistance and support and helping them make 
these changes.
    Mr. Bereuter. Thank you. The gentleman from California, Mr. 
Rohrabacher, is recognized for 10 minutes.
    Mr. Rohrabacher. Thank you very much. Let us talk a little 
bit about China and Russia's influence in this region, and as 
we know that this was the area where a century and a half ago 
they used to call it the ``playing field of the great game'', 
Britain and Russia seeking influence.
    Is Russia now engaged in trying to dominate these former 
territories that it has dominated for the last 70 or 80 years?
    Mr. Pressley. Mr. Rohrabacher, I am probably not the best 
witness to speak definitively on Russia's intentions. I can 
tell you that from my perspective of seeing the assistance 
activities that are carrying out in Central Asia, that Russia 
remains very engaged in this area, it regards it as an area 
that is of extreme importance to its own national interest.
    Mr. Rohrabacher. Do you see Russia as a positive force or 
negative force?
    Mr. Pressley. I think that there an attempt to be sure to 
continue the domination of these countries because it has been 
such an important part of their economy. I have seen, for 
example, that as Kazakhstan is talking about joining the WTO, 
they are very nervously watching what Russia is doing and 
trying to get guidance from that, and trying to understand the 
impact this would have on their economy. That is only 
understandably so, from my perspective.
    Mr. Rohrabacher. The people I met from the region, a lot of 
them believe that Russia is engaged in destabilizing the region 
intentionally. Would you say that the Russians, for example--
one example I have always heard is that they are trying to keep 
the war going between Azerbaijan and Armenia. Is there any 
validity to that, do you think?
    Mr. Pressley. I am not aware of any validity to that. That 
might be a question I could take back to the State Department 
with me. We have the contact group, the Group of Five, that 
have been working to resolve--help resolve the issues between 
Azerbaijan and Armenia. Russia is a member of that group, and 
the reports that I get from our representative on that group is 
that there is coordinated effort to try to resolve those 
issues. But, as I say, I may not have the full information on 
that.
    Mr. Rohrabacher. Is there Chinese immigration evident in 
Kazakhstan and Turkmenistan, perhaps Tajikistan?
    Mr. Pressley. I cannot answer that question. I would be 
happy to take it for the record and check with my colleagues in 
the State Department on this.
    [This information was not submitted at the time of 
printing]
    Mr. Rohrabacher. Two years ago when I visited the region, 
there were complaints in Kazakhstan, in particular, that there 
seemed to be an intentional illegal immigration of Chinese 
Nationals into the country, and you haven't seen any evidence 
of that?
    Mr. Pressley. I have not seen that.
    Mr. Rohrabacher. All right. The Uzbekis seem to be, just 
from my perspective, more sophisticated in their leadership. Of 
the various leaders I met in the region, Karimov and his group 
seemed to be much more sophisticated and even pro-Western than 
the others who I met, especially this guy from Turkmenistan, 
the guy who has his picture all over the place, with the big 
hat on and everything. That is really strange.
    Mr. Pressley. Niyazov.
    Mr. Rohrabacher. But even in Uzbekistan where they seem to 
be sophisticated and pro-Western, in the last elections they 
let everybody down. In Uzbekistan, they are very suspicious of 
Russians. Their rhetoric has been certainly pro-Western. So, 
for people who seem to understand, have an understanding, they 
seem to be sophisticated, yet they make a travesty out of the 
electoral process. How do you explain that?
    Mr. Pressley. As we mentioned earlier, these are new 
nations. These are leaders who had not come from any sense of 
change. They are former Communist leaders who----
    Mr. Rohrabacher. All of them are. Are we just going to have 
to wait it out for a generation or two, for all these people to 
die off either naturally or otherwise?
    Mr. Pressley. I certainly hope not, but we are going to 
have to work away at the citizen level, and work with these 
nongovernmental groups that I have been talking about.
    I think that the leaders of this region feel that they are 
under a variety of pressures, including those coming from 
Afghanistan and other parts, that lead them to believe 
incorrectly that they need to maintain that ``iron fist'', that 
they need to be in charge and not let people speak out against 
them, and not allow the kind of dissent that is so healthy.
    So, I think it is going to have to come up from the bottom, 
and that is where we are working.
    Mr. Rohrabacher. From what you have said, I take it the 
National Endowment for Democracy and other of our pro-human 
rights institutions in the United States have been active in 
the region and have done a fairly good job, from what you can 
see?
    Mr. Pressley. Yes, that is right. I can't speak 
specifically to the National Endowment for Democracy in this 
part of the world, although they are working in this region 
more broadly. But I think that there are a variety of human 
rights groups that have had programs there, and we have 
supported them, and we think they are doing the right thing and 
are trying their best.
    Mr. Rohrabacher. You agree with my assessment that unless 
there is some kind of change in Afghanistan, that it will 
continue to be a source of instability for the region as a 
whole?
    Mr. Pressley. I do.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Again, 
for the record, I am very deeply disappointed in this last 8 
years. I really believe that if we would have been more 
forceful in that region, we could have had more progress toward 
a truly democratization; instead--and I have met almost all of 
these leaders, and some are more sophisticated, like in 
Uzbekistan, and others are less sophisticated perhaps, like in 
Kazakhstan or in Turkmenistan, but whatever their level of 
sophistication, they seem to have not made the progress that we 
felt was potential 8 and 10 years ago and, without that success 
on the political end, we are not going to have the economic 
success that we all know is the potential of Central Asia.
    So, thank you very much, and thank you, Mr. Chairman.
    Mr. Bereuter. Thank you, Mr. Rohrabacher. I agree with your 
assessment.
    The gentleman from South Carolina.
    Mr. Sanford. Thank you, Mr. Chairman. If I might, I am 
gathering a few thoughts, would the gentleman from New Jersey 
like to go? If not, I will go, but----
    Mr. Bereuter. I am pleased to yield to the Chairman of the 
International Operations and Human Rights Subcommittee, the 
gentleman from South Jersey?
    The gentleman from New Jersey, who Chairs the International 
Relations Operations and Human Rights Subcommittee.
    Mr. Smith. Thank you very much, Mr. Chairman, and I thank 
Mr. Pressley for his testimony and regret that I was not here 
earlier. I was one of the speakers at the rally on PNTR and had 
to wait my turn, and finally got up there and it set me back 
time wise. So, I do apologize for not hearing your testimony.
    I would like to make a very brief opening statement and 
then submit some questions to our very distinguished witness.
    I am very pleased that we are able to conduct this joint 
hearing on the state of democracy in the Central Asia 
Republics. As you know, Mr. Chairman, I introduced last fall, 
H.Con.Res. 204, voicing concern about the serious violations of 
human rights and fundamental freedoms in most states of Central 
Asia.
    Much has transpired in the region since the time of 
introduction, and I am eager for us to schedule a markup and 
Floor consideration on the measure as soon as we return from 
the Easter recess.
    As we all know, the Secretary of State is traveling to 
Kazakhstan, Kyrgyzstan, and Uzbekistan in the coming days, and 
members of the Helsinki Commission, which I chair, joined me 
just recently in sending a letter to the Secretary of State 
urging her to raise a number of very specific human rights and 
democratization issues in her talks with authorities in the 
region, and I would ask that that letter be made a part of the 
record.
    Mr. Bereuter. Without objection, that will be the order.
    [The information referred to appears in the appendix.]
    Mr. Smith. Thank you. In general, the state of 
democratization and human rights in the countries of Central 
Asia is a source of serious concern, frustration and 
disappointment.
    Over the past year, the Commission has conducted a series 
of hearings on the countries in the region. The five newly 
independent States of Central Asia were admitted to the OSCE in 
1992, after freely accepting all commitments contained in the 
1975 Helsinki Final Act and subsequent OSCE documents.
    Let us not forget that each of the leaders, having signed 
the OSCE documents, have personally acknowledged ``democracy is 
the only system of government for our Nations'', and committed 
themselves to foster democratization by holding free and fair 
elections, to promote freedom of the media, and to observe 
human rights.
    Some 8 years later, these countries remain independent 
sovereign entities, but in much of Central Asia the commitments 
have been slighted. Central Asian leaders give every indication 
of intending to remain in office for life, and Western 
Capitals, though dutifully pressing their leaders to observe 
OSCE commitments, seem to have accepted this unpleasant reality 
as unalterable.
    Throughout the region, fundamental freedoms are ignored 
while leaders entrench themselves and their families in power 
and in wealth.
    Mr. Chairman, the deterioration of democracy, the lack of 
the rule of law, and the violations of human rights seriously 
jeopardize genuine stability in the region and are contrary to 
U.S. interests. I would strongly suggest that our interests 
could only be advanced through the promotion of democratic 
principles where officials are accountable to the electorate 
and justice is administered impartially.
    I want to thank you again, and I look forward to our second 
panel, and I will, again, Mr. Pressley, read your statement 
very carefully. Yield back.
    Mr. Bereuter. Thank you very much, Chairman Smith.
    Is the gentleman from South Carolina prepared to proceed? 
The gentleman is recognized.
    Mr. Sanford. I was looking through notes--and, again, I 
apologize for being late as well. I would simply say this, I 
guess I have two questions--one on the role of Islam in the 
region. What are your thoughts on radical Islamic faith versus 
not? Is that increasingly becoming a problem point? If you 
already covered this in your testimony, just say so.
    The second question I would have would be exactly how much 
do we give in aid to that region, because I missed it, and it 
may be in your notes.
    Mr. Pressley. Thank you, sir. On your first point, I did 
not talk about the role of Islam. Central Asia has a form of 
Islam that varies across the countries, and we have seen in 
some countries that there is a great comfort level there, if 
you will, with that religion. In others, there is considerably 
more tension. Tajikistan, for example, unfortunately, is an 
area of civil strife, and the various warring factions that are 
there are influenced by their various views on religion.
    As we mentioned earlier, there are radical elements of 
Islam that are very interested in expanding their role and 
influence and control in this part of the world, and the 
leaders of these countries are quite determined to keep that 
radical element out.
    So, it is an area where unfortunately this major religion 
is being used by various groups for their own means and 
devices, and they are using this as a way to stir up the 
people, and it has caused both unrest and great conflict in 
this region.
    In terms of the budget, if I could just put this in 
perspective, the level of assistance that was appropriated 
under the FREEDOM Support Act that covers the NIS, over all the 
years that we have been there is approximately $7.5 billion. 
Out of that, we have allocated approximately $900 million to 
the Central Asia Republics.
    Mr. Sanford. For some reason, I thought it was more in the 
neighborhood of like $400 million a year that was going to--us 
that the neighborhood, or that is high?
    Mr. Pressley. That is high. For Kazakhstan, in this fiscal 
year, the amount allocated for USAID programs is $27 million; 
Kyrgyzstan is approximately $21 million; Tajikistan is $7 
million; Turkmenistan is $4 million, and Uzbekistan is $9 
million.
    Mr. Sanford. So I am mixing up former Soviet republics to 
the east when I get to that. Yes. If you look at the 
configuration of the presidency, in essence, for instance, in 
Kazakhstan, as I understand, power is very centrally located in 
the executive branch as opposed to other branches of 
government. Is America getting a good return on--in essence, 
you have a king over there, as I understand. Is that not the 
case?
    Mr. Pressley. You have a very authoritarian government, 
there is no doubt that. We have seen that elections are 
severely flawed, and that power remains very heavily 
centralized.
    Our approach to deal with that issue, as I mentioned 
earlier, is to work at the grassroots, to promote civil 
society, to promote citizens' awareness, to cause them to 
understand the benefits of democracy and want to advocate for 
change themselves. This is a long-term strategy but, as we have 
all indicated, over the past 8 years we have been disappointed 
in the level of reform and the movement toward democracy, and 
we think this kind of grassroots approach has to be the one 
that will pay off for us in the end.
    Mr. Sanford. I am burning through my time, but you would 
say that that $23 million a year that the taxpayer is sending, 
for instance--and I am not picking on Kazakhstan other than the 
fact that you mentioned it, you could pick each of the 
different countries--but you would say that could be an 
exceedingly long-term investment by the American taxpayer--
several generations is essentially what you are saying.
    Mr. Pressley. I would hope not several generations.
    Mr. Bereuter. The gentleman's time has expired.
    Thank you, Mr. Pressley, for appearing here today and for 
your testimony.
    Mr. Bereuter. If our second panel would come forward, we 
are going to hear from Dr. Paul Goble, Director of 
Communications for Radio Free Europe and Radio Liberty; Dr. 
Martha Olcott, Professor, Department of Political Science, 
Colgate University; and Ms. Cassandra Cavanaugh, Researcher for 
Human Rights Watch in New York City. As I mentioned, your 
entire statements will be made a part of the record. You may 
proceed as you wish. I would like to see if you could summarize 
your comments in about five or 6 minutes, if possible, or give 
us that part that you would like to supplement your prepared 
remarks, and then we will move to the questions.
    First, we will call on Dr. Martha Olcott, Professor at 
Colgate University.
    Dr. Olcott, you may proceed as you wish.

    STATEMENT OF DR. MARTHA BRILL OLCOTT, SENIOR ASSOCIATE, 
   CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE, PROFESSOR OF 
             POLITICAL SCIENCE, COLGATE UNIVERSITY

    dR. Olcott. I apologize that I am going to have to leave 
after my testimony and any questions that are directly for me 
because I am testifying in the Senate subcommittee at exactly 
the same time as I am here.
    Mr. Bereuter. I understood that you were not going to be 
there until 3:30.
    Dr. Olcott. They moved the hearing back to 2 and they 
wanted me there at 3, if I could.
    Mr. Bereuter. It is very difficult for us to intervene and 
have members ask questions of just you without listening the 
other panelists. We will see as we go.
    Dr. Olcott. Then, am I excused to leave after my testimony?
    Mr. Bereuter. That is not too helpful to the members. We 
like to be cooperative with the Senate, but I believe you were 
scheduled to come here to the House of Representatives. We will 
see if we can work something out as we proceed.
    Dr. Olcott. Because I feel really awkward, but that was the 
negotiation with the staff. I am sorry.
    Mr. Bereuter. Staff is not authorized to give way to the 
Senate. Doctor, you may proceed.
    Dr. Olcott. I am going to summarize part of my testimony.
    The Central Asian region has been a disappointing one from 
the point of view of democracy-building. In fact, the situation 
appears to grow worse with every passing year. Initially, 
Kazakhstan and Kyrgyzstan seemed to be making steady progress 
toward the development of democratic or quasi-democratic 
politics, but in the past 2 years the regimes in each country 
have become more autocratic. Uzbekistan and Turkmenistan have 
had strong man rulers from the outset. Hopes for achieving a 
political opening in the former case were largely dashed after 
the February 1999 bombings in Tashkent.
    The one ``bright light'' is Tajikistan, where part of the 
opposition has been brought into government and the role of 
nongovernmental groups has expanded in recent years. However, 
the government in Dushanbe is not yet in control of this war-
torn country, and leaders in neighboring states see the 
``victories'' of democracy in Tajikistan as further 
destabilizing the situation in their own countries.
    The main reason why democracies have not developed in 
Central Asia is that the region's leaders don't want them to. 
However, the region's rulers would like us to believe that the 
failure of democracy-building in the region is a good thing, 
not a bad one. They portray their populations as unready for 
democracy, politically immature, and capable of being swayed by 
extreme ideologies. In addition, they say that their people 
respect strong rulers, and as traditional Asians they are ill-
disposed to democracy.
    Most importantly, they argue that their neighborhood is too 
dangerous to allow them the risk of empowering the people. The 
latter explanation has become more popular over time, given the 
obviously deteriorating security situation in the countries in 
and around the region. Decisions about economic reform and 
political institution building are regularly subjected to the 
litmus test of whether policy initiatives are likely to help 
the government keep the peace.
    Invariably, though, those in power view their continuation 
in office as inseparable from the cause of stability. Partly 
this is because they view themselves as most fit to rule, but 
in many cases it is also because they do not want to lose the 
perquisites of power. The latter has allowed these men to 
enrich themselves, their families and their cronies, although 
the abuse is varied from country to country.
    For now, the population of the region generally tolerates 
the actions of their leaders, but this does not mean that they 
are unprepared for democracy, or that they will forever accept 
the current situation.
    The level of preparedness for democratic institution 
building and level of public engagement on civil society issues 
varies dramatically from country to country. Unfortunately, 
many of the support structures necessary for democracy-building 
are disappearing in these countries with each passing year, 
this includes a committed elite and the institutions necessary 
to sustain pluralistic or democratic societies.
    Decisions to restrict democratization have reduced the 
number of political stake holders in each of these societies. 
There is also an implicit relationship between political and 
economic reform. Economic reform also creates new political 
stake holders, and the pattern of economic restructuring has 
varied considerably. So, too, have decisions about the 
empowerment of traditional institutions and local governments. 
Thus, the potential consequences of the current failures in 
democratic institution building vary from country to country. 
There are also interdependencies throughout the region, and 
failures in one state can create problems in another.
    These patterns of interdependency make Uzbekistan a 
critical nation to watch. Developments here will influence 
those in neighboring states.
    In this regard, the political map of Uzbekistan was quite 
similar to that of Tajikistan, although the economic, political 
and social structure of the Uzbeks was more complicated than 
that of the Tajiks. Political unrest in Uzbekistan has never 
reached that same fevered pitch. At the same time, the 
government has pursued a highly focused campaign against 
secular and religious political activists.
    In many ways, Uzbekistan has the most thought-out model of 
state-building in the region, although it is far from clear 
that it is able to meet the challenges that this state faces. 
Karimov has looked to institutionalize a system where there is 
a strong man on top, who chooses regional rulers and then 
allows a certain range of autonomous action and functioning of 
re-empowered traditional institutions. This model is designed 
to create a wide range of stake holders in the regime, 
particularly at the local level. Key to the model is Karimov's 
support for the maintenance of a strong social welfare net, 
which is designed to stimulate mass political allegiance. Local 
institutions are charged with the supervision of this net and 
this makes local officials important stake holders. At the same 
time, though, it allows the Karimov regime someone to blame 
when things go wrong.
    The system, however, is directly linked to the state 
maintaining a certain threshold of economic productivity. While 
official Uzbek figures on GDP suggest that the country has not 
suffered the same precipitous economic decline as neighboring 
states, conditions on the ground tell a different story. The 
Uzbek government has managed to maintain a minimum standard of 
living across society by sharply restricting the convertibility 
of the national currency.
    These decisions about economic reform are creating their 
own political risk. However, economic conditions in the country 
in recent years have led to the thwarting of many thousands of 
these potential entrepreneurs at all levels. In other words, 
the number of potential economic stake holders in the country 
has been sharply reduced, and with them the number of potential 
political stake holders. This has increased elite 
dissatisfaction in favor of meeting a perceived mass demand. It 
is not clear if the regime has set up the conditions necessary 
to meet mass demand in the future, they may simply have 
transferred the period of maximum political risk from the years 
just after independence to a period down the road.
    Islamic opposition groups have been forced underground or 
to flee the country. The nature of religious opposition is such 
that anti-regime groups have been able to better position 
themselves than have their secular counterparts. The number of 
Muslim followers of fundamentalist ideologies has increased in 
the past several years, but it should not be presumed that all 
Islamic activists are potential terrorists, they obviously are 
not, but a serious Islamic threat now exists in Uzbekistan. 
Given the level of elite dissatisfaction and the continued 
presence of religion, religious themes are far more likely to 
be used as a way to mobilize popular opposition to the regime 
than might otherwise have been the case, and it is not beyond 
the realm of the possible that secular and religious opponents 
could make common cause.
    The longer economic reform is postponed, the more difficult 
it will be for an alternative political elite to find an 
independent power base.
    Kyrgyzstan. The situation in Uzbekistan has had an obvious 
influence on developments in neighboring Kyrgyzstan. The risks 
associated with this permeability were clearly demonstrated in 
the Batken hostage crisis last summer when a group of Uzbek 
fighters held Kyrgyz and Japanese hostages for several months.
    These actions occurred at a time when the Kyrgyz government 
was in the process of backing away from its commitment to 
democratic principles, and provided a further justification for 
them to do so.
    President Akaev used to be an ardent supporter of 
democratic principles that worked well for him. Kyrgyzstan was 
the model in the region, and it led to a much higher than 
average per capita foreign assistance in the country. However, 
the standard of living in Kyrgyzstan continues to deteriorate. 
This has made President Akaev far more unpopular. This 
unpopularity as well as growing corruption tied to the official 
family has made him very suspicious of political opposition.
    At the same time it has become more difficult to complain 
about these abuses. Formal and informal restrictions on the 
press have increased, and most serious of the abuses is to the 
electoral system, particularly the treatment of opposition 
politicians, including most recently the arrest of Feliks 
Kulov.
    Political crack down in Kyrgyzstan need not be a recipe for 
civil war or civil unrest, but it certainly makes a poor 
country poorer and more dependent upon powerful neighbors as 
well as a growing drug trade.
    The current pattern in Kyrgyzstan is similar to that of 
Kazakhstan, where there has also been a crack down on political 
opposition and jailing of figures that contested the authority 
of Nazarbayev and corrupt parliamentary elections. However, in 
many ways, the crack down in Kazakhstan is less troubling than 
that in Kyrgyzstan. The problem is that the nature of stake 
holding in Kyrgyzstan is much more restrictive. Kazakhstan is 
implicitly pluralistic, given the country's enormous size, 
economic complexity, and ethnic diversity.
    This informal pluralism is not a substitute for formal 
pluralism, but it does help keep alive the potential for 
democratic development in the absence of a supportive 
environment. The supportive environment is no longer present in 
Kazakhstan. Although economic reform has been episodic, it has 
been largely linear, and it has led to the empowerment of some 
independent economic stake holders. Regional economies are also 
beginning to develop. These are still too small and those tied 
to them too cautious to actively seek political power, but they 
are likely to become a force that will need to be reckoned with 
at the time when power begins to ebb away from President 
Nazarbayev.
    Just a few comments about Turkmenistan. It is the most 
opaque of the Central Asia societies. It has an anachronistic 
political system, media is tightly controlled, and there is no 
intellectual life to speak of in the country.
    In the first years of independence, when it looked like oil 
and gas wealth was around the corner, the peculiarities of the 
Turkmen political system were less troubling to potential 
political and economic stake holders. Now, the crack down in 
Turkmenistan's political life combined with the closing down of 
economic prospects mean that there will be no democratic 
institutions to be used by increasingly more thwarted political 
and economic stake holders.
    In many ways, Tajikistan has made the most strides toward 
achieving a civil society, in part because a coalition seemed 
the only way out of the crisis engendered by the civil war. At 
the same time, Tajikistan has the most criminalized economy in 
the region, creating a state within a state. Drugs dominate in 
the border areas with Afghanistan, and the mayor of Dushanbe is 
said to meet his municipal needs by taxing the drug trade. The 
pervasive atmosphere of lawlessness in Tajikistan makes other 
Central Asian leaders frightened of the Tajik example.
    What lessons can we draw from the past 9 years of U.S. 
policy? I would argue that these dismal results do not mean 
that U.S. efforts have been for naught. There is a tradition of 
independent media developing in most of the countries of the 
region, even if what they can broadcast is still restricted. A 
new generation of lawyers and other legal experts is receiving 
training, and with time they should be able to provide a more 
forceful lobby for the need for legal reform. the number of 
people with formal training in business and economics is also 
increasing, and they too seem certain to push for the need for 
legal reforms in the area of protection of property. The next 
generation of administrators throughout the region should be 
better trained than the current one, and they will be able to 
draw on the expertise and involvement of those active in the 
NGO sector.
    The U.S. should continue to make an investment in the human 
capital of Central Asia, however, we shouldn't exaggerate the 
influence that these training programs are likely to have. 
Young people with knowledge of the West are likely to make more 
effective interlocutors when they come into positions of 
importance, but they need not make better or more dependable 
partners for the U.S.
    Thank you.
    [The statement of Dr. Olcott appears in the appendix.]
    Mr. Bereuter. We are going to bend our rules and we will 
call on Mr. Rohrabacher for a question, and then we will 
proceed to the other two gentlemen for a question each.
    Mr. Rohrabacher. The real trouble is that you have got 
every one of those countries is being run by a very strong 
individual who doesn't want to give up power. Am I being too 
simplistic there?
    Dr. Olcott. No.
    Mr. Rohrabacher. Because if it wasn't that, there is a good 
possibility that we would have some evolution, but we are not 
seeing this evolution because of the strong individuals.
    Maybe a policy I suggested to Hun Sen down in Cambodia 
might be an idea, and that is to say if we are going to have a 
relationship with you, we have got to know that you are not 
going to try to be the strong man and the power in this country 
forever, for as long as you are alive, and suggested that there 
be a voluntary term limit agreement that these tough guys, for 
us to even have any relations with them, have to agree to 
announce that after a certain number of years--4, 8, or 10 
years, whatever that is--that they will no longer be the head 
of their country and they will leave power. What do you think 
about that?
    Dr. Olcott. I think it is a great idea, but I don't think 
you would find any takers in the region.
    Mr. Rohrabacher. It depends on what the price was for not 
agreeing to that. Certainly, if we just continue to treat them 
as a legitimate government--I made it very clear to Hun Sen 
that I wasn't going to treat him like legitimate head of state 
and that I would be a royal pain if he continued to act as if 
he was going to control that country forever. But what if our 
whole government was telling Hun Sen and these various 
dictators that and just walk away from them if they don't agree 
to that?
    Dr. Olcott. I would say that as bad as these regimes are, 
most of them aren't on the short list of the most horrible 
regimes in the world, which is probably why it would be hard to 
totally walk away from the regimes.
    The big problem is that the leaders of the countries are 
really greedy and the problem of official corruption is really 
a serious one, and they are not going to walk away easily. But 
I would say where the U.S. has to put its influence is to work 
with these people to create institutions necessary to support 
the inevitable political successions that are going to occur, 
that even though it is harsh to say we have to take the hit on 
the next 5 or 10 years, I think what we have to do is begin 
working toward the transfer of power, and to try to keep things 
from deteriorating even further.
    Mr. Rohrabacher. Mr. Pressley recommended that we try to 
set up and support these alternatives from the ground up. 
Frankly, I don't think that the problem is with the grassroots 
in these societies. I think it is the other way around, and no 
matter how much money and effort we put in trying to convince 
the people to develop democratic institutions, they are ready 
for it. It is these tough guys that are the real problem.
    Mr. Chairman, I think that is all the questions I have.
    Mr. Bereuter. Thank you, Mr. Rohrabacher. Mr. Sanford, one 
question for the Professor.
    Mr. Sanford. My one question would be regarding the number 
for Turkmenistan it was around $5 million or something that we 
sent there. In politics, if you don't have a certain level of 
saturation in advertising, frankly, it is a waste of time. Are 
we at that waste of time level with some of these countries?
    Dr. Olcott. Honestly, I think we are with some of them. I 
don't think we can make a dent in Turkmenistan's domestic 
politics and their decision to go back to selling gas through 
Moscow, I think, is proof of the fact that they have options. 
They may not be options we like, but I think engagement with 
Uzbekistan is really critical because they create a security 
risk for the whole region. I think engagement with Kazakhstan 
is really critical because I think, as I say in my formal 
remarks at greater length, that Kazakhstan is implicitly a 
pluralistic society even though it is not legally or explicitly 
a pluralistic society, and I think by really engaging in 
Kazakhstan today, we can help ensure the chance that when 
Nazarbayev passes from the scene, Kazakhstan will become a more 
attractive place to do business with. It is not lost, it really 
isn't.
    Mr. Bereuter. Thank you. Good question, Mr. Sanford.
    Dr. Cooksey.
    Dr. Cooksey. Thank you, Mr. Chairman. Is it correct that 
most of our aid is going to Kazakhstan?
    Dr. Olcott. I think so, yes. I think that Kazakhstan 
receives more monetarily and Kyrgyzstan receives more per 
capita.
    Dr. Cooksey. Where did you say you would place that aid, if 
you were to place it?
    Dr. Olcott. I would continue with what we are doing in 
Kazakhstan, and even upgrade. I think the money we are spending 
on economic restructuring, which is really where a lot of this 
is going, is really having an impact. I think that economics 
will help lead Kazakhstan out of its political mire. It is a 
large, complex country, and the degree to which they create an 
independent entrepreneurial class, which is beginning to be 
formed, I think is really the hope of the future. 
Unfortunately, we can't engage in the same way in Uzbekistan 
because their currency is not convertible. Even though I am a 
political scientist, I think in the long-run money spent on 
economics in these transition societies will contribute more. 
We have to keep working with the NGO's. We obviously have to 
keep defending human rights and human rights activists, but I 
think that the future of transition will really only occur if 
there can be the creation of a new, independent entrepreneurial 
class and if local governments can begin to function in a more 
or less quasi-pluralistic way.
    Dr. Cooksey. Elaborating on your last comment, Dr. Olcott, 
is there a meaningful way for American business and American 
businesswomen and businessmen to participate in this economic 
growth development that we are helping support in Kazakhstan, 
for example?
    Dr. Olcott. There is, especially in Kazakhstan where the 
currency is freely exchangeable. The two problems with business 
in Kazakhstan--and I serve as one of the directors of the 
Central Asian American Enterprise Fund, as its Vice Chair in 
fact--the problem that we encounter with our investments is 
that the market is really still very small. That is one of the 
problems, how big a prize is the capture a market of only 18 
million people, as Central Asia is not yet a whole single 
functioning economic region. The second is the dependability of 
contract, and the second is one I think that we can really 
continue to work with the Kazakh government to increase 
training of economic judges. I think these are all things that 
we really can do and where AID is really making a real and 
important contribution.
    Dr. Cooksey. Thank you very much. Thank you, Mr. Chairman.
    Mr. Bereuter. Thank you, Dr. Olcott.
    Dr. Olcott. May I be excused?
    Mr. Bereuter. Yes.
    Dr. Olcott. I am really sorry, I apologize. Thank you.
    Mr. Bereuter. Mr. Goble and Ms. Cavanaugh, we are pleased 
to hear from you.
    Mr. Goble, you are listed first, you may proceed as you 
wish.

STATEMENT OF MR. PAUL GOBLE, DIRECTOR OF COMMUNICATIONS, RADIO 
                   FREE EUROPE/RADIO LIBERTY

    Mr. Goble. I am pleased to be speaking before this 
Subcommittee for the first time because I think it represents a 
major step forward--not that I am invited--but that Central 
Asia is being focused on by something other than the European 
aspect of looking through Moscow to get to Central Asia, and I 
want to commend you for the reorganization which, 
unfortunately, has not been paralleled everywhere else in this 
city.
    The governments of post-Soviet Central Asia are producing 
what they say they most want to avoid--growing instability and 
the rise of a radical Islamist opposition. Moreover, the two 
more important outside actors in the region, Russia and the 
West, are unintentionally encouraging this process, in the 
first case so as to extend Moscow's influence and in the second 
in the name of maintaining stability, and imposing an Islamic 
threat which, in fact, the approach that has been adopted is 
producing rather than containing.
    But as a result of all this, the prospects for democracy 
and the stability that democracy can bring in these countries 
in this region are now far worse than they have been at anytime 
since the collapse of the Soviet Union.
    That sobering conclusion is one that suggests that these 
countries may, in fact, in the upcoming leadership transition, 
go in the direction of the authoritarian, anti-Westernism 
pursued by Iran, Algeria and several other Islamic countries. 
It in turn reflects the nature of the post-communist regimes in 
these countries, the nature of Islam as it has evolved there 
first under the Soviet system and now in post-Soviet times, and 
finally the nature of the involvement of outside powers. I 
would like to comment briefly on those three topics, and I have 
spoken more fully in my written presentation.
    In his classic essay of the early 1970's, ``Will the Soviet 
Union Survive until 1984?'', Andrei Amalrik predicted that the 
countries of post-Soviet Central Asia were far more likely to 
continue Soviet patterns of behavior long after communist power 
fell than any other countries to emerge from a post-USSR 
environment.
    He argued that the congruence, even fusion of the 
traditional patriarchal forms of rule with Marxist-Leninist 
methods would have the effect of preserving the Soviet system 
in important ways, and that preservation of the past, he 
concluded, would mean that when change did come to the region, 
it was likely to be more radical, more anti-Western, and hence 
more dangerous than anywhere else. I believe that is true.
    Tragically, as so often happens to a prophet, Amalrik's 
words on this point have been ignored even after his 
fundamental prediction about the demise of the USSR proved 
true. Even more tragically, his prediction about Central Asia 
are proving to be true right now.
    Overwhelmingly, as has already been noted, the Soviet-era 
leadership of these countries remains in place. Three of the 
five presidents were first secretaries of the Communist Party 
and the apparatus is more than 80 percent holdovers from the 
Communist Era. It is going to take more than a couple 
generations to change that because we are already watching the 
nomenclature reproduce itself with people accepting the values 
of their bosses from Soviet times because no one is being 
sufficiently critical of what they are doing.
    What we have seen in the last few years, after a great deal 
of optimism in the early 1990's, is that Kazakhstan President 
Nursultan Nazarbayev has become ever more authoritarian, and 
Kyrgyzstan President Asker Akayev, in whom so many placed so 
much hope, has become as authoritarian as anyone else. 
Turkmenistan cannot begin to be called a democracy; indeed, it 
is very difficult to speak of it as a legitimate state. 
Uzbekistan, the joke in Uzbekistan is that Uzbekistan did not 
leave the Soviet Union, the Soviet Union left Uzbekistan, and 
much of it has been preserved.
    Still worse, the leaders of these countries have done 
everything they can to prevent the emergence of a genuine civil 
society that could simultaneously support their governments 
over time, and produce a new generation of leaders. Precisely 
because so many people in the West have defined the emergence 
of NGO's as being the equivalent of the emergence of democracy, 
what we have seen is the restoration of a Soviet-era pattern, 
namely, government organized nongovernmental organizations, or 
``GONGO's'', which can be trotted out to visiting Congressmen 
and others to demonstrate that somehow democracy is happening.
    But to compound this problem, the leaders, compelled 
largely by us, have used the vocabulary and occasionally the 
forms of democracy, while draining both of any real content. 
That combination has produced a fragile authoritarianism, one 
that is likely to meet its demise with the passing of this 
generation of leaders.
    Who is going to come next? Unfortunately, the post-Soviet 
leaders of these countries are producing their own nemesis, 
namely, a kind of fundamentalist Islam. Islam, by itself, does 
not represent a threat to either the social order or to the 
political arrangements in Central Asia, but Islamist politics 
do to both.
    This paradox reflects three important things. First, Soviet 
policies in the region had the effect of removing the content 
of Islam while leaving the label as an important marker of 
identity, thus opening the way for its fundamental redefinition 
by opposition political entrepreneurs, particularly when they 
were deprived of the possibility of speaking anywhere else. It 
is truly tragic that large numbers of people in this city have 
accepted Russian characterizations of Muslims as being 
fundamentalists, when they are not even good Muslims.
    I once had the opportunity to speak to President Djokhar 
Dudayev from Chechnea, and Mr. Dudayev told me, ``Mr. Goble, I 
am a good Muslim, I pray three times a day``. A good Muslim 
would know that you pray 5 times a day. But having been a 
member of the Communist Party since age 18, he was not totally 
familiar with the religion he was being blamed as a spokesman 
for.
    Second, the post-Soviet regimes in this region have 
continued the Soviet practice in dealing with Islam, 
officializing part of it and suppressing much of the rest, 
which has the effect of making the suppressed part of Islam 
that which is most attractive to political opponents.
    Third, precisely because these regimes have been able to 
contain most of the elements that could provide for the 
emergence of an independent civil society but refused to deal 
with Islam in that way, these governments have put themselves 
at risk of going the way of the Shah of Iran. In other words, 
if you destroy all other parts of civil society or prevent 
their emergence, all political opposition is just placed on 
Islam, and that radicalizes Islam which is more possible 
because of the denaturing of Islam that took place during 
Soviet times and is continued under post-Soviet times.
    I could say a great deal more about those things. Let me 
only add that it is equally unfortunate that people see the 
Taliban of Afghanistan as threatening Moscow. The Taliban is a 
PASHTO--based organization. The instability related to Islam in 
Central Asia is generated in Central Asia, not by the Afghan 
model, with the exception partially of Tajikistan, because the 
spillover is caused only as a model, not as an export of the 
organizational structure. I think that is important that we get 
that.
    What has happened and what has made it more dangerous is 
that all five of the regimes in post-Soviet Central Asia have 
sought to enlist the support of Islamic identity making it 
possible to talk about it even as the organizations are 
structured. Islam has become more dangerous, not less, but it 
is because of the way the regimes have behaved and the failure 
of the criticism of the West.
    Meeting these challenges, creating a civil society which 
would allow for the transition from one generation of leaders 
to another would be difficult in the best of cases if nobody 
was doing anything from outside.
    Unfortunately, the challenges that the Central Asian 
countries have been compounded by the policies adopted by the 
two actors who matter most. On the one hand, the Russian 
government is ever more interested in winning back the 
positions it lost in the region in 1991 by playing up to the 
current leaders--in other words, the Commonwealth of 
Independent States is routinely described as a ``Club of 
Presidents''--and by positing threats to them so that the 
region will turn again to Moscow for aid. Ten days ago, the 
Russian government organized a meeting of Security Council 
Chiefs in Dushanbe to talk about the possibility of cooperation 
and signed an agreement where the Russians will rebuild the 
security agency of Tajikistan. If you think that Tajikistan is 
going to have an independent security organization after that, 
I will have to disagree with you.
    But it is not only the Russian effort to posit an Islamic 
threat and therefore justify more repression and keep these 
countries from evolving in the direction of civil society, it 
is also the case that Western governments have generally 
adopted a very short-term approach supporting, or at least 
avoiding, too open criticism of the harshly authoritarian 
regimes in this region either in the name of stability or to 
allow for economic development, which is supposed to cure 
everything, or to promote geopolitical goals.
    The Russian behavior is getting worse, and let me tell you 
that it is not just the older generation. A poll published in 
Moscow on Monday of this week shows that more than 50 percent 
of high school students in the city of Moscow--supposedly the 
most reformist-minded part of the Russian Federation--more than 
50 percent of high school students believe that the proper 
borders of the Russian Federation should be those of the Soviet 
Union, or even more, those of the Russian Empire before 1914. 
So, Poland and Finland had better worry, too, in the future.
    Happily, we have begun to see some more criticism of these 
regimes. I believe that the failure to be critical about this 
is a big problem. I also believe that the way in which we 
choose to measure how much democracy there is, counting GONGO's 
or only surveying elections, is problematic.
    One American official in the region noted privately not 
long ago that the only reason people in Washington think 
Kyrgyzstan is more democratic than Kazakhstan is because the 
Kyrgyz government had not conducted an election as recently, 
and therefore we had not been able to see just how repressive 
Asker Akayev had been.
    All of this--the support of authoritarian regimes in the 
name of temporary stability, the belief that that is enough, 
and that ultimately something will turn up to allow there to be 
a reasonable transition--recalls the Western approach to the 
Shah of Iran, to the uncritical support of his openly 
authoritarian regime and creating a situation in which, when he 
fell, the only available force to replace him was a radicalized 
Islamic Ulemah (phonetic), and now we have had to deal for very 
much too long with a theocratic and anti-Russian tyranny.
    The governments in Central Asia unfortunately are breading 
Islamic fundamentalism even as they talk to us about democracy, 
however modified, and the historical record suggests that a 
failure by us or by others to speak up on this will have the 
most serious consequences for the people of this region and for 
the interests of the United States as well.
    Thank you, Mr. Chairman.
    [The statement of Mr. Goble appears in the appendix.]
    Mr. Bereuter. Thank you, Mr. Goble, your comments are 
always interesting, worth waiting for.
    Next we would like to hear from Ms. Cassandra Cavanaugh, 
from Human Rights Watch. Thank you for your patience. We look 
forward to your testimony. You may proceed as you wish.

  STATEMENT OF CASSANDRA CAVANAUGH, RESEARCHER, HUMAN RIGHTS 
                             WATCH

    Ms. Cavanaugh. Thank you, Mr. Chairman, and to Chairman 
Smith as well, for the opportunity to testify at this hearing. 
Coming as it does on the eve of the Secretary of State's trip, 
it is a very important opportunity to review both the political 
development of this region, but U.S. policy over the past 
decade as well.
    Since 1990, Human Rights Watch, which is a nongovernmental, 
nonprofit organization, has closely monitored human rights in 
the five former Soviet Central Asian republics and we have had 
researchers stationed in Dushanbe, Tajikistan since 1994, and 
in Tashkent, Uzbekistan since 1996.
    Nearly a decade ago, the dissolution of the Soviet Union 
raised hopes that vast new areas of the globe would come under 
democratic forms of governance. The five states of former 
Soviet Central Asia have done the most, I think, to dash these 
hopes. Once known as countries in transition, at the turn of 
the new century the Central Asian states, I would argue, have 
largely seen their political transitions from communism 
completed, the transition is over, but it was a transition to 
authoritarianism, not to democracy.
    The United States has pursued an integrated policy toward 
the region, correctly recognizing that democratization, 
economic development and stability are inseparable. Now that 
progress toward democratization in the region has decisively 
stalled, or even gone backward, the U.S. has continued to 
advance other aspects of bilateral relations, such as economic 
support and security assistance, without linking them to the 
third prong, to political reform. A short summary of the 
political developments of the past year will demonstrate, I 
hope, how integrally democratization and stability in the 
region are linked, and that they should be pursued in tandem 
and with equal vigor.
    From 1991 to 1999, the states of Central Asia made some 
progress, as my fellow members of this panel have argued, in 
creating the outward trappings of democracy. All of the 
countries have elected legislatures and enacted constitutions 
which enshrine popular sovereignty, the rule of law and the 
separation of powers. All states but Kazakhstan have signed the 
International Covenant on Civil and Political Rights.
    Despite these innovations, substantive democratization was 
highly uneven, to say the least. Throughout this period, the 
international community waited patiently for democracy to take 
hold in the region, and supplied millions of dollars in 
technical assistance and aid aimed at building democratic 
institutions, as Professor Olcott has emphasized. The elections 
scheduled in each of the countries over the past 2-year period, 
however, were viewed as a test of those states' commitment to 
democratic reform. It is a test that all five states have 
failed miserably and predictably, not for lack of knowledge of 
democratic procedures or lack of desire on the part of the 
population, but, as Mr. Rohrabacher has pointed out, because 
the leaders did not want it.
    Presidential and parliamentary elections in 1999 took place 
amidst coordinated government efforts to limit freedom of 
speech, assembly, and association, which prevented citizens 
from making free and informed decisions on voting day. Each 
government kept would-be candidates off the ballot by 
questionable means. Flagrantly violating their own election 
laws, local government authorities, which Mr. Pressley has 
asserted were becoming more accountable to citizens, used all 
means at their disposal to promote government-favored 
candidates, to block any opponents from campaigning 
effectively, and to falsify counts where necessary, as 
documented by local and international monitors in Kazakhstan, 
Kyrgyzstan, and Tajikistan. In Turkmenistan and Uzbekistan, the 
OSCE considered elections to be so meaningless as to not merit 
full fledged observer missions.
    The elections of 1999 and 2000 occasioned massive and 
systematic violations of citizens' rights. But even more 
troubling, the consolidation of authoritarian rule in each of 
these states has complicated efforts to find solutions to deep 
social crises, deteriorating economies, and to ward off 
external threats that each country in the region faces.
    So, briefly, I will summarize the aftermath of the 
elections in each of the five countries.
    In Turkmenistan, the virtual one-man government of 
President Niazov has intensified pressure against the few frail 
expressions of civil society, particularly Protestant and other 
nontraditional religious groups. Niazov continues to jail the 
few remaining government critics that he has, and has presided 
over the removal of all term limits in order to become 
president for life, which raises interesting implications for 
the Hun Sen policy that you mentioned.
    In Tajikistan, elections were accompanied by state-condoned 
violence. The effective exclusion of most opposition factions 
from the legislative and executive branches continues to 
threaten the fragile peace accord.
    In Uzbekistan, as I think my co-panelists agree, is in many 
ways the most troubling case. The government blamed bombings in 
the capital Tashkent last year on a conspiracy of outlawed 
secular and religious opposition leaders. Over the course of 
1999, thousands of their supporters were arrested, tortured, 
and jailed. Hundreds fled the country, and some joined armed 
bands calling themselves the Islamic Movement of Uzbekistan 
based in neighboring Tajikistan. In August, those bands staged 
an incursion into neighboring Kyrgyzstan, and are said to be 
planning further military actions. Only state-sponsored parties 
were allowed to take part in November's elections. In the 
Presidential vote, even the one alternative candidate, the head 
of the successor to the Uzbek Communist Party, admitted voting 
for President Karimov. Arrests of all those still accused on 
ill-defined charges of religious extremism for discussing ideas 
inimical to the government have not flagged in 2000. Violations 
of due process rights, vicious torture, long periods of 
incommunicado pre-trial detention, and sham trials clearly 
flaunt international human rights guarantees and are 
threatening Uzbekistan's stability not from without, but from 
within.
    In Kazakhstan, the government of President Nazarbayev 
continues to harass and suppress the few remaining independent 
media outlets not controlled by the president's family. It uses 
criminal liable suits to close independent newspapers, and has 
engineered the dismissal of critical journalists using threats 
and intimidation. All those who take to the streets in public 
protest face the risk of prison.
    In Kyrgyzstan, which has experienced the most dramatic 
regression to the most repressive practices of its neighbors, 
Presidential elections still scheduled for October, in advance 
of these elections President Akaev has imprisoned one of his 
leading opponents, former Vice President Feliks Kulov, and 
ensured that the other one will be disqualified from the 
ballot. Independent media and NGO's continue to be harassed, 
severely harassed, while demonstrators protesting electoral 
fraud have been arrested and beaten.
    What has been the U.S. response so far. If 1999 was a test 
of the Central Asian countries' commitment to democracy, it was 
also a test of U.S. Central Asia policy.
    Since the dissolution of the Soviet Union, democracy 
promotion, coupled with economic development, particularly in 
the oil and gas sector, and security assistance has been the 
Administration's recipe for stability.
    After the elections last year, however, the impasse in 
democratization has not been accompanied by a parallel slowdown 
in other areas of these bilateral relationships. The case of 
Kyrgyzstan, I think, demonstrates how this failure to maintain 
the linkage between all facets of U.S. policy works against the 
very progress the U.S. is trying to promote.
    Just after the arrest of Mr. Kulov, whom I have just 
mentioned, one of Kyrgyzstan's most respected journalists, 
Zamira Sydykova, reported on her conversation with a senior 
Kyrgyz government official. This official, who is an advisor to 
President Akaev, dismissed OSCE and U.S. criticism of 
Kyrgyzstan's electoral violations. He gave the rationale that 
during the elections last year in Kazakhstan, that country was 
also criticized but suffered no concrete ill effects. In 
addition, this official cited continued U.S. aid flows to 
Kyrgyzstan at the same time as critical statements were 
emanating from the Department of State as proof that there was 
no consistent U.S. policy toward human rights violations in the 
region. Surely this reasoning must have played a role in 
President Akaev's decision to jail his major opponent.
    We draw the conclusion that critical rhetoric alone, which 
I must say over the past year has been increasing from the 
State Department, is not sufficient to promote real change, 
especially when criticism is undercut by the extension of 
significant benefits, whether through aid, taxpayer-funded 
Eximbank loan guarantees, or support for international lending 
institutions' activity. I should say that the aid is 
considerable, not only the Freedom Support Act tens of millions 
of dollars that was cited by the previous witness, but in the 
hundreds of millions of dollars for Eximbank loan guarantees. 
Uzbekistan alone has received over $950 million in Eximbank 
loan guarantees, $250 million last year alone when it was 
engaged in this bloody crack down.
    The U.S. must make continued economic and political support 
to the countries of Central Asia conditional on their 
introduction of real democratic reform. In this regard, we 
welcome the linkage between corruption and assistance which 
came out of report language from the Senate Foreign Relations 
Committee last Friday, on the Technical Assistance Trade 
Promotion and Anti-Corruption Act. We would even welcome this 
language becoming statutory and its expansion to address not 
only corruption, but other aspects of the rule of law, such as 
independence of the judiciary, freedom of the media, and 
transparency.
    The current Administration, however, sadly, seems to be 
moving farther away from aid conditionality on human rights 
grounds. Military and security issues are beginning to take 
center stage, as the recent visits by FBI and CIA Directors to 
the region attest. The Secretary of State's trip to the region 
has been presented as the inauguration of a new expanded 
relationship with the countries of the region. Rumors suggest 
that all of the countries the Secretary will visit will be 
certified by the State Department to receive military 
assistance under the Cooperative Threat Reduction program, 
although the Department of State itself recognizes that 
Uzbekistan systematically and egregiously violates its 
citizens' basic rights.
    The sad irony is that, as many observers of the region and 
political scientists note, neither the thorough-going market 
reforms nor the external and internal stability which the U.S. 
aims to support with this enhanced assistance can be achieved 
without democratization and respect for the rule of law.
    The U.S. must reject the arguments of Central Asian states 
requesting indulgence of their anti-democratic practices, 
pleading dangers of Islamic radicalism and other risks to 
security, because these are self-serving and counterproductive 
explanations. Citizens will reject the call of extremism only 
in societies where broad sectors of the population feel that 
the government is responsive to, and adequately protects their 
interests.
    In conclusion, Central Asia's democratization and progress 
toward the protection of human rights is in the U.S.' best 
interest, not only because these are the core values of this 
nation, but also because democracy and the rule of law are 
necessary for lasting development and stability.
    Human Rights Watch urges Congress to ensure that U.S. 
economic assistance, particularly those forums requiring 
consideration of human rights grounds, such as Eximbank, will 
be tied in the future to genuine democratic reform in Central 
Asia.
    Thank you.
    [The statement of Ms. Cavanaugh appears in the appendix.]
    Mr. Smith [presiding]. Thank you very much, Ms. Cavanaugh, 
for your excellent testimony. I think, for the record, it 
should be known that both in my Subcommittee and I am sure Mr. 
Bereuter's, and in previous times with the Helsinki Commission, 
both of you have been invited to testify on a host of issues. I 
was just looking at the record, whether it be the situation in 
Uzbekistan last October, both of you testified on that before 
the OSCE on Turkmenistan. Ms. Cavanaugh, you testified just a 
couple of weeks ago on March 21st, and it is precisely because 
we so value your opinion and the credibility of your remarks 
that you continually get invited to appear before these 
Committees and before the Helsinki Commission. You really do 
raise a number of critical issues that are largely ignored by 
Congress, by the executive branch, at least by certain members 
of the executive branch, as we strive toward stability and a 
sense of glossing over or papering over certain issues.
    I joined you, Ms. Cavanaugh, when your organization was 
crying out for withholding of that tranche to Russia because of 
the Chechnea conflict. Many of us saw Chechnea I coming. Paul 
Goble was outspoken, as was Human Rights Watch, about the 
miscues that led to the, what, 80,000 people who were butchered 
in that horrific battle or war, and Chechnea II was also on the 
radar screen, and regrettably there has been no penalty 
whatsoever imposed by the West, by the United States and by the 
lending institutions that you just mentioned, whether it be 
World Bank, IMF, or anyone else.
    Wage your wars, do so with impunity--not a peep other than 
some rhetorical reaction from the West, and they see right 
through that. Money talks. It is just like one of the reasons 
why I was late, I was speaking out against PNTR, and reasonable 
men and women can differ as to whether or not that is the way 
to go. I happen to believe we are supporting dictatorship in 
our policy. They have gone from bad to worse over the last 7 
years, when Mr. Clinton wisely, at first, had an MFN linkage to 
human rights, and if you read it--and I went back and reread 
his Executive Order and his speech of that day in 1993--it was 
a brilliant speech, a brilliant Executive Order. One year 
later, when they went from bad to worse, from significant 
progress, as spoken of in that Executive Order as well as his 
statement, to significant regression in every single solitary 
category. That sends a message to others, like in Central Asia, 
like in North Korea, and every other despotic or near despotic 
country around the world.
    Just let me ask, if you would, Ms. Cavanaugh--and, Mr. 
Goble, you might want to speak to this as well--this issue of 
withholding Eximbank credits and really getting serious--it is 
as if these people just see us as business-as-usual types. We 
will say something, we will put out a very accurate human 
rights report--and Harold Koh, I think, does a magnificent job 
as Assistant Secretary for Labor and Democracy and Human 
Rights--and it is as if none of that matters when it comes to 
implementation. There is a disconnect, as Amnesty International 
says over and over.
    What should be done? What do you think should be Congress' 
role? It is as if these countries are not on too many people's 
radar screen, regrettably, but if you could speak to that, 
because I think we are at a crucial time, with the pipeline and 
all those other issues, and now with the prospects of military 
assistance to a dictatorship, that is outrageous.
    Ms. Cavanaugh. In the report language for the House Foreign 
Appropriations Act, there was language introduced by 
Congresswoman Pelosi that instructed Eximbank to beef-up its 
human rights assessment procedures.
    At the current time, Eximbank refers projects of over $10 
million to the State Department for what its own language here 
is ``State Department clearance'', political clearance and 
human rights clearance.
    We have requested these clearances again and again through 
the Freedom of Information Act, and we continue to see that 
with Uzbekistan and Turkmenistan they are completely cursory. I 
have copies of them here that you are welcome to take a look 
at. They are signatures.
    Mr. Smith. Without objection, I would like to make them a 
part of the record.
    [The information referred appears in the appendix.]
    Ms. Cavanaugh. I will submit them. They are completely 
cursory and meaningless. We feel that it would be a marvelous 
step forward if Congress were to mandate that Eximbank increase 
this procedure for examining the human rights effects of 
extending hundreds of millions of dollars to these corrupt and 
abusive states.
    Mr. Smith. Thank you. Mr. Goble.
    Mr. Goble. Thank you, Mr. Chairman. Like any other country, 
the United States has three competing sets of interests in 
these countries--economic, geopolitical, and political 
transformation in the direction of democracy and human rights.
    I am absolutely convinced that the focus on economics and 
geopolitics alone is counterproductive, and it is driven by a 
short-term approach to life. It is sometimes called in the 
region the policy of ``stabil `nost' uber alles'', from the 
Russian, that the idea is that if we can just hold on for 
another year, another 2 years, and it will be stable.
    But by failing to address the political problems--and these 
are structural political problems--by failing to be honest 
constantly with ourselves and with the governments of these 
countries--and that is the top of these governments where the 
repression is the greatest--what we are doing is creating a 
situation where we may have stability now, but where the coming 
instability will be far worse.
    It is my view that the single most important thing that we 
can do is to first off make it very clear that we are 
consistent across-the-board. If people are doing bad things, 
they should not receive assistance. But we should also label 
what they are doing very clearly.
    It is, I think, unfortunate in many ways that the only 
assessment we give of democratic process on a regular basis is 
when elections are held. Delegations go in for 1 or 2 weeks and 
they come back and they say, technically, it was a fine 
election, or it wasn't.
    Most of these countries know what you have to do to do it 
technically right so you don't get criticized too much. But if 
the government controls almost all of the electronic media, if 
it controls almost all of the print media, if it intimidates 
and locks up journalists as the governments of this region and 
across the former Soviet space do, then it is not possible to 
have an open democratic competition. We have seen that in the 
Russian Federation, we have seen that in the Caucasus, we have 
seen that in Central Asia, and all too often we have not 
labeled that behavior as anti-democratic.
    We have, to my mind, been much too accepting of the idea 
that if there is enough economic change, there will be 
political change that will follow. It seems to me that if you 
want political change, you have to address the political 
questions. Economics can be a lever, but it has to be used as 
such. The self-confidence of some that if there is just a 
rising amount of economic wealth, that that by itself will 
produce democracy, I am afraid is not confirmed by the 
historical record across the world.
    Mr. Smith. Let me just ask with regards to Kazakhstan, 
which many of us thought was on the right track in the 1990's. 
President Nazarbayev has flagrantly, as you know, flouted OSCE 
commitments on holding free and fair elections, while his 
family members seized control of the country's media outlets.
    With cycle of farcical elections over for the foreseeable 
future, we believe--and we have conveyed this to the 
Administration, we did so in a letter to Secretary of State 
Albright just recently and it was signed by Steny Hoyer, my 
Ranking Member on the Commission--that one of the best ways of 
promoting this would be a very modest move, and that would 
involve setting up an independent printing press.
    I would appreciate your thoughts on that, and also the 
issue of the upcoming may round table meetings that the Kazakh 
officials have announced. Many of us would like to see the 
Kazakhgeldin as a part of that. If these things have any kind 
of credibility at all, an opposition leader ought to be a 
participant.
    Ms. Cavanaugh. Certainly, the issue promoting the 
independent media is the key one in this interim before 
elections are to come again for 5 or 7 years. I think it is 
wonderful that Congress is promoting this idea of creating an 
independent printing press in Kazakhstan. You will know that 
USAID supported the creation of a privately owned printing 
press in Kazakhstan, but privately owned doesn't mean 
independent because that was soon taken over by people close to 
Nazarbayev, and we know that it doesn't print anymore 
opposition or critical material after that buy out.
    So, to have a printing press owned by a third party really 
is the only to ensure its independence in Kazakhstan. I 
certainly hope that the aid organizations and the 
Administration will find a way to do that.
    With respect to the round table in Kazakhstan, I am not 
sure where negotiations between the government and the OSCE and 
various opposition groups stand on that issue right now, but I 
think the example of Kyrgyzstan is an interesting one.
    A coalition of Kyrgyz NGO's and opposition groups just 
recently called on the OSCE in that country not to hold such a 
round table because they felt the government was using it as a 
way to excuse what they had done in the parliamentary 
elections. They felt the government was going to be able to get 
away without discussing the key issues on the table, and that 
is continued repression and actually revoking or redressing 
some of the fraud that went on in the elections. They felt that 
it would be an easy way out for the government.
    I would feel that it would be important for the U.S. 
Government to look to what the opposition and the broad segment 
of the Kazakh opposition, not just one or two groups, feels 
about holding this round table, and make sure that it is not an 
easy way out for the Kazakh government as well.
    Mr. Goble. Could I just add very briefly two thoughts? The 
first is that I would certainly urge--I am delighted to see the 
print media grow, as I tend to be a print person, no matter 
what--but I would tell you that I think it would be far better 
to invest in the electronic media.
    In most of these countries, upwards of 75 percent of people 
get their news from radio or television because they can no 
longer afford to buy the newspapers. In most of these 
countries, people must choose between buying a loaf or bread or 
buying a newspaper. Guess what they choose most of the time?
    The electronic media, and especially television, is the 
best possible way to get to these people. Increasingly, the 
Internet plays a role, but in the short-term it is the 
electronic media that is a bigger deal, and I would urge 
consideration of supporting that because, right now, the so-
called ``privately owned'' media is mostly in the hands of the 
old party nomenklatura, or even the family members of the 
dictators. That is just the reality in this region. The people 
can count how many privately owned radio stations or TV 
stations there are, but the reality is most of those are owned 
by the old nomenclatura, or in Kazakhstan in particular, by 
members of Nazarbayev's family.
    With respect to a round table, I am very skeptical, too, 
because I think it does allow these dictators to get off the 
hook for not allowing elections. On the other hand, round 
tables coupled with a constant monitoring not just by Human 
Rights Watch/Helsinki, but by U.S. Government officials who 
will then speak out could make a difference.
    At present, we have essentially privatized the monitoring 
of what goes on in this part of the world, and if it could be 
re-officialized--that is, that there would be very tough 
statements--we have journalists beaten up, we have people being 
arrested for talking--talking--to Western journalists. We have 
people being arrested, as you said, out of their hospital room, 
Feliks Kulov in Kyrgyzstan. We have people disappearing, and 
all too often nothing gets said except by groups like Human 
Rights Watch/Helsinki. As important as they are, they tend to 
be ignored by many of these governments much of the time.
    When the U.S. Government speaks, there is usually a 
reaction with one of these convoluted explanations of why it is 
justified, but it is a different thing, it is to officialize 
the criticism of what is going on.
    Mr. Smith. Mr. Goble, thank you. I have some additional 
questions, but I will them for the second round. Mr. 
Rohrabacher.
    Mr. Rohrabacher. Congresswoman Cynthia McKinney and I have 
a piece of legislation that I believe now is signed into law, 
called ``A Code of Conduct'', that we are not going to be 
selling weapons to dictatorships, and by your analysis we 
wouldn't be selling--we shouldn't be selling weapons to any of 
these countries in Central Asia, is that correct?
    Mr. Goble. That is correct.
    Mr. Rohrabacher. That sounds right. Is the National 
Endowment for Democracy and the ACYPL [Council for Young 
Political Leaders] are they reaching out to try to find young, 
perhaps more liberal, for lack of a better word, people in 
those countries?
    Mr. Goble. I think that they have made some progress. I 
think, however, as has been pointed out before, these are 
extremely difficult countries to work in, and sometimes the 
people who were presented as options for these exchanges and 
these activities are, in fact, selected by the government. That 
is why I made reference to GONGO's. We really have the 
government organizing these NGO's.
    The rate of exchange is not yet so massive, especially from 
these states, that we have been able to break through 
necessarily the old nomenclatura. I think there is some hope 
because there were some people who were fed up with the old 
nomenclatura system even though they were inside it.
    Mr. Rohrabacher. Let me ask you a question. In an ideal 
world--I am not talking about right now because we may not even 
have an ideal government here in the United States in terms of 
the policies that we would like to see--clearly, the U.S. 
Government does not make human rights and democracy a priority. 
That is clear. This particular government and this 
Administration has made a mockery of that standard. I know my 
Democratic friends aren't here to defend the government, but 
that is my honest assessment. I wish it was different. In fact, 
when President Clinton became president, I said to myself, 
``well, gee, at least I am going to be able to work with this 
fellow on things like China and other issues where he is going 
to be a little bit more oriented toward human rights than 
George Bush was'' and, boy, was I disappointed.
    In an ideal world, would you have the CIA and the U.S. 
Government undermining dictatorial regimes like this? Would you 
have the CIA going into Burma and perhaps Turkmenistan and 
trying to find a democratic, potentially democratic clique in 
the military or something like that?
    Mr. Goble. Congressman, I think that the problem with 
trying to do that is you sometimes end up installing people who 
rapidly become as bad as the people that they are replacing 
simply because of the way they would be installed. It requires 
a much broader approach to transform these societies and to 
transform these political leaders.
    I will tell you that I am more worried about the day after 
these five dictators die than I am about the days now, as bad 
as things are, because there has been absolutely no preparation 
for that transition. That would create challenges, and I am 
afraid and--indeed, I believe it is Russian state policy--that 
when one of these leaders dies and when there is instability, 
that the Russian government will attempt to introduce troops in 
the name of peace keeping. It will be peace keeping, but they 
will be spelling it differently than we do.
    But I would like to go back to what you said earlier about 
the human rights component. The human rights component is 
absolutely essential to American foreign policy. We have 
watched the citizens of a large number of the countries in the 
former Soviet space become something that Stalin was never able 
to achieve, namely, anti-American, because the perception is 
growing that we will support dictators, that we will support 
those who repress them. That is true in the Russian Federation, 
it is true across Central Asia. Those people were looking to 
the United States as the archetypical first new nation.
    I had the privilege in 1991 of leading some of the leaders 
of the Baltic countries around this town, and I will tell you, 
the proudest moment in my life, in many ways, was taking the 
former president of Estonia to the Lincoln Memorial, Arnold 
Ruutel with his two Orders of Lenin. I was translating the 
Gettysburg Address into Russian, because that was our best 
common language, and the National Park Ranger came up and said 
to me, ``What language are you speaking?'' I said Russian. He 
said, ``Are these people from Russia?'' I said, ``No, these 
people are from Estonia''. This National Park Ranger who wanted 
to give us a folder said, ``Oh, I have heard of Estonia. It is 
just a little country that wants to be free''.
    Let me tell you something. That kind of popular American 
attitude is what the peoples of this region expected from this 
country in 1991. When we have supported dictators, it has 
undercut that.
    Mr. Rohrabacher. To be fair, I think the American people 
still have their idealism, this idealism. I think that the 
cynicism found in our business community in the fact that they 
would make a buck off selling torture equipment to Nazis if 
they could, as I see, I do not find any moral standards for 
which our business community will not sink in order to make a 
quick buck, and that has only been surpassed by this 
Administration's ability to just totally make a mockery of any 
human rights standards of other countries, and it is 
unfortunate.
    But on the bright side, I think the American people, both 
Democrats and Republicans, have a love of liberty in their 
heart that has a side with little guys who want freedom in 
their countries. One prediction for this region--and, again, I 
agree with you folks on what is our long-term goal, we are 
people who promote liberty and justice and treating people 
decently and are against the bad guys--but in the long-run, I 
think that we are going to face some very strategic maneuvering 
around Central Asia that is very similar perhaps to what the 
maneuvering was a century and a half ago, only England is not 
going to be the player. The other player is going to be China. 
I would predict that within 10 years you will see a major 
competition going on in this region between China and Russia, 
and I will even go further, that I would predict that within 10 
years you will see incursions by China into Kazakhstan, and 
that will change the whole formula. Unfortunately, this area, 
these people, deserve better than just being pawns in a 
strategic game between huge players. They deserve like people 
anywhere else, to be able to control their own destiny and, if 
they were able to do so through the democratic process, I think 
the world would be a safer place because this would be less 
susceptible to that type of outside coercion and outside 
targeting.
    So, with that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. Smith. Thank you very much, Mr. Rohrabacher. Let me 
just ask a few followup questions. Kyrgyzstan's President 
Akaev, once on of the fondest hopes of reformers, orchestrated 
the recent parliamentary elections and demonstrated his 
determination to eliminate any challengers.
    The recent arrest, however, of Feliks Kulov as well as the 
violent dispersion of demonstrators signals an attempt to 
intimidate society in advance of the upcoming Presidential 
elections.
    Given Kyrgyzstan's previous record and the hopes it 
engendered, no country in Central Asia is more disappointing. 
The February-March parliamentary election made plain that the 
president's intention to pursue a regional pattern of 
falsifying and keeping noncommunist parties and rivals from 
running against him ala Nazarbayev.
    Let me just ask you on the arrest of Kulov and Uzanov, who 
we in the Commission have spoken out a number of times in 
recent days about, if Secretary of State Albright was sitting 
up here, not me or Dana Rohrabacher or Tom Lantos who was here 
just a moment ago, and Chairman Bereuter, what would you tell 
her about those issues, especially as it relates to--when you 
take a man from his hospital bed, as Feliks was taken--cardiac 
problems, in an exhaustion state, and the Minister of Interior 
scoops him up and takes him to one of their cells--what does 
that say on the eve of a trip of our very distinguished 
Secretary of State? What would you advise her in terms of when 
she meets face-to-face with the leadership there?
    Ms. Cavanaugh. In Human Rights Watch' letter to the 
Secretary of State, we supported the CSCE's call to make the 
release of Feliks Kulov a nonnegotiable condition of the 
Secretary of State's trip. We think it is a real slap in the 
face to the United States that Mr. Kulov was arrested on the 
verge of this trip being announced. It was a real throwing down 
of the gauntlet, just the kind of attitude that I described in 
my testimony, that we know nothing is going to be done, so we 
are going to do whatever we want.
    I think it is interesting to note that Mr. Kulov, former 
mayor of Becshkek, former head of the MVD, former vice 
president, is genuinely very popular in Kyrgyzstan, and it is 
indicative to me that Mr. Akaev fears him probably the most 
because there is no opponent like someone who used to be so 
close to you, but obviously the trip of the Secretary is 
happening anyway. We seriously hope that there will be distinct 
and definite conditions placed on all forms of assistance to 
Kyrgyzstan predicated on Mr. Kulov's release.
    Kyrgyzstan is a ward of the international financial 
institutions. Its loans and assistance from the IMF and the 
World Bank exceed its GDP. The kind of language that is in this 
bill coming out of the Senate could really place pressure on 
Kyrgyzstan, and I hope that it really comes to pass.
    Mr. Goble. Since the trip appears to be going ahead, I 
would hope that the Secretary of State would demand to meet 
with Mr. Kulov publicly and make it very clear that the United 
States supports democracy and opposes this kind of abuse, and 
that is the kind of thing Secretaries of State have done, and 
it would be a very powerful signal if the trip is going ahead. 
I think you have to do that in addition to the conditionality. 
It is the symbolism of doing these things that are often more 
important given the relatively limited financial exposure we 
have in some places.
    Mr. Smith. Let me ask you again, in Kyrgyzstan, the issue--
there are a number of ways you can silence your critics. You 
can arrest them. You can torture them. You can shut down their 
printing presses. You can also initiate a series of libel 
suits, and we know that Milosevic in Serbia used this against a 
number of the independent media, and we know that Akaev is 
using that device as well to shut down a number of the 
independents.
    Again, in speaking to us and hopefully by amplification to 
the Secretary of State--because we are grateful that her 
representatives have stayed here--what would you say with 
regard to that issue, that it is not so subtle just shut down 
the media by suing, and by way of theft taking their ability to 
give an independent voice?
    Ms. Cavanaugh. You are well aware that it is happening in 
Kyrgyzstan, and it is happening in Kazakhstan as well. The 
recent case of the newspaper ``Let's begin on Monday'', they 
have 14 libel suits pending against them, over $2 million U.S. 
dollars in damages. They will be bankrupt for the rest of their 
natural lives, and never dare so much as to start another 
newspaper again.
    I think it is very important for the Secretary to express 
that she sees through this tactic that is being used in both of 
these countries, and that it does constitute--using the legal 
system in this way does constitute a violation, a clear 
violation of rights, of bilateral commitments, of international 
commitments, and that--again, not to be a one-trip ponier--but 
that there will be consequences for this.
    Mr. Goble. I think that it is terribly important that a 
country which really got its start by the John Peter Zanger 
case in the 1750's where the principle, the truth, was a 
defense against a charge of libel, should be very clear that 
all the laws in all of these countries--and they exist in 
varying form in all 12 member states of the Commonwealth of 
Independent States--against attacks against the president, 
slandering the president, where truth is not a defense under 
the available legal system, that the elimination of those laws 
should be a major item on the American agenda with these 
countries precisely because it is our position, going back to 
the Zanger case, that is at the foundation of what makes 
American democracy possible.
    Mr. Smith. Let me ask you with regards to Uzbekistan, 
President Karimov made a president to Audrey Glover, then 
Director of ODER--this was back in 1996--to register the Human 
Rights Society of Uzbekistan. So far, he has not done so.
    Today, the society, as well as the independent human rights 
organization, exists through their functioning, though their 
function has been impaired by a series of arrests and beatings.
    Again, Secretary Albright will be there. Here we have a 
situation where the human rights monitors--and I will never 
forget one of the most moving meetings I have ever had was with 
members of Charter 77 in the former Czechoslovakia--and when 
Steny Hoyer and I tried to meet with a larger number of groups, 
several of those people were arrested en route to our meeting. 
Fr. Amali came and a few other people came who were able to get 
through the secret police net, but others were detained.
    Human rights monitors have always been the people that we 
have got to put the sandbags around. As a matter of fact, 
several of them, including Ishmael Adelov, Makubov Kasimova and 
Mile Kobilov have been arrested--and, again, these are the 
people who are the salt of the earth in Uzbekistan--and our 
Secretary of State is going there. She has got to demand that 
they be released immediately, and everyone else who has been 
put in prison, has been tortured due to trumped up charges. But 
with regards to the monitors, if you could speak to that. 
Again, this is a president who freely made a promise to the 
ODER representative back in 1996.
    Ms. Cavanaugh. The case of the human rights monitors, as 
you rightly pointed out, is the pivotal one. It exposes the 
essence of these governments' policies with clarity that is 
just unsurpassed in any other way.
    We understand that there will be a round table so that the 
Secretary of State can meet with representatives of NGO's--we 
hope with some real NGO's, not just GONGO's--as well as the 
representatives of some of these unregistered human rights 
groups that remain unregistered to this day. But I hope that 
the Secretary makes it perfectly clear that she understands 
that there are two people missing--three people missing in this 
room, and those are the ones that you have mentioned. Their 
prison sentences of 5, 6, and 7 years, in conditions of 
Uzbekistan, may very well be tantamount to death sentences, and 
we hope that there will be the strongest pressure exerted on 
Uzbekistan to release these people and to live up to the 
commitments, as you mentioned, that they so freely made a few 
years ago.
    Mr. Goble. I would add only that it is terribly important 
not only to seek the release of these individuals, but to 
demand the creation of the conditions which will allow human 
rights monitors to work.
    One of the things that is a trap in dealing with dictators 
is that dictators frequently arrest people so that they can 
then free them and this is proclaimed a major step forward. But 
if there is not an additional step, which is to create the 
conditions under which the human rights monitors can do their 
jobs, what we will see is more of them will be arrested as soon 
as a Western leader has left the airport.
    Mr. Smith. If I could ask you with regards to religious 
freedom issues in Uzbekistan, while we were all happy in 
September 1999 when five evangelical Protestants and one 
Jehovah's Witness was released, Tashkent's policies have always 
been of concern. We raised this at our hearing recently, as you 
might recall.
    Again, what should be the message of the U.S. Government, 
of our Secretary of State, when she does indeed meet with the 
leaders in Uzbekistan with regard to religious freedom issues? 
I think, Mr. Goble, you made a very good point, you arrest 
people and you release them and you are supposed to get kudos 
for it. Don't arrest them in the first place. We have seen some 
very riveting testimony, or heard riveting testimony about the 
repression of religion in Uzbekistan, and it is very, very 
significant, but if you could respond.
    Mr. Goble. I would only urge that we should raise the 
possibility that religious groups should not be subject 
registration because as long as there are subject to state 
registration, they can be subject to state interference.
    It is an unfortunate reality of the post-Soviet states that 
laws on religion which were supposed to open the door to 
greater religious freedom, created a variety of institutions 
not only in Uzbekistan but elsewhere, for interference and for 
selective prosecution. It is precisely the fact that it is 
inevitably selective that it is repressive against those who 
are unfavored at the moment, which exercises a chilling effect 
on any possibility of religious freedom.
    This is not just a problem in Uzbekistan, this is a problem 
across all 12 countries in the Commonwealth of Independent 
States, and it is something that has to be addressed 
constantly. The mistake is to demand registration because that 
is the beginning of the slippery slope down to control and what 
it is doing.
    Let me just end with this one thought. The most dangerous 
reality that these governments are creating--Karimov of 
Uzbekistan, in the first instance--is by having an official 
church--be it official Islam, official Pentecostals, official 
Presbyterians, whatever--you inevitably create an underground 
church in all of those cases by people who are unwilling to 
participate in the charade of ``religious registration''. Those 
underground groups, by shifting into that underground mode, 
become politicized--not only do they become victimized, but 
they become radicalized, and they are then in the business of 
trying to overthrow the government.
    So, we need to explain to the governments of these 
countries that they are generating this time bomb under them in 
the name of short-term control.
    Mr. Smith. I want to thank our very distinguished 
witnesses, and Mr. Bereuter may have some questions as well, 
and just say that we are planning a hearing on Kyrgyzstan in 
the very near future in the Helsinki Commission, and we will do 
a review--especially post-Secretary of State Albright's trip--a 
public hearing to determine what was said, how was it said, and 
in keeping with our very important role of oversight. I do 
believe we are on the same page, but this has to be promoted 
not only robustly, but also with linkages because, without it, 
it could be ``in one ear, out the other'' on the part of these 
offending governments.
    So, I want to thank you very, very much for your very fine 
testimony, and yield to Chairman Bereuter.
    Mr. Bereuter [presiding]. Thank you very much. There are 
some days when hearings don't work out, at least for the 
Chairman, and this was one of those days. But I very much 
appreciate the testimony that you have given, and the responses 
you have undoubtedly given to my colleagues' questions.
    I think now, in light of the votes that are here and the 
need to move to a markup immediately, I will just express again 
my appreciation to both of you for your testimony. I thank you.
    The joint hearing of the Subcommittees is adjourned.
    [Whereupon, at 3:45 p.m., the Subcommittees were 
adjourned.]
      
=======================================================================




                            A P P E N D I X

                             April 12, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T5201.001
    
    [GRAPHIC] [TIFF OMITTED] T5201.002
    
    [GRAPHIC] [TIFF OMITTED] T5201.003
    
    [GRAPHIC] [TIFF OMITTED] T5201.004
    
    [GRAPHIC] [TIFF OMITTED] T5201.005
    
    [GRAPHIC] [TIFF OMITTED] T5201.006
    
    [GRAPHIC] [TIFF OMITTED] T5201.007
    
    [GRAPHIC] [TIFF OMITTED] T5201.008
    
    [GRAPHIC] [TIFF OMITTED] T5201.009
    
    [GRAPHIC] [TIFF OMITTED] T5201.010
    
    [GRAPHIC] [TIFF OMITTED] T5201.011
    
    [GRAPHIC] [TIFF OMITTED] T5201.012
    
    [GRAPHIC] [TIFF OMITTED] T5201.013
    
    [GRAPHIC] [TIFF OMITTED] T5201.014
    
    [GRAPHIC] [TIFF OMITTED] T5201.015
    
    [GRAPHIC] [TIFF OMITTED] T5201.016
    
    [GRAPHIC] [TIFF OMITTED] T5201.017
    
    [GRAPHIC] [TIFF OMITTED] T5201.018
    
    [GRAPHIC] [TIFF OMITTED] T5201.019
    
    [GRAPHIC] [TIFF OMITTED] T5201.020
    
    [GRAPHIC] [TIFF OMITTED] T5201.021
    
    [GRAPHIC] [TIFF OMITTED] T5201.022
    
    [GRAPHIC] [TIFF OMITTED] T5201.023
    
    [GRAPHIC] [TIFF OMITTED] T5201.024
    
    [GRAPHIC] [TIFF OMITTED] T5201.025
    
    [GRAPHIC] [TIFF OMITTED] T5201.026
    
    [GRAPHIC] [TIFF OMITTED] T5201.027
    
    [GRAPHIC] [TIFF OMITTED] T5201.028
    
    [GRAPHIC] [TIFF OMITTED] T5201.029
    
    [GRAPHIC] [TIFF OMITTED] T5201.030
    
    [GRAPHIC] [TIFF OMITTED] T5201.031
    
    [GRAPHIC] [TIFF OMITTED] T5201.032
    
    [GRAPHIC] [TIFF OMITTED] T5201.033
    
    [GRAPHIC] [TIFF OMITTED] T5201.034
    
    [GRAPHIC] [TIFF OMITTED] T5201.035
    
    [GRAPHIC] [TIFF OMITTED] T5201.036
    
    [GRAPHIC] [TIFF OMITTED] T5201.037
    
    [GRAPHIC] [TIFF OMITTED] T5201.038
    
    [GRAPHIC] [TIFF OMITTED] T5201.039
    
    [GRAPHIC] [TIFF OMITTED] T5201.040
    
    [GRAPHIC] [TIFF OMITTED] T5201.041
    
    [GRAPHIC] [TIFF OMITTED] T5201.042
    
    [GRAPHIC] [TIFF OMITTED] T5201.043
    
    [GRAPHIC] [TIFF OMITTED] T5201.044
    
    [GRAPHIC] [TIFF OMITTED] T5201.045
    
    [GRAPHIC] [TIFF OMITTED] T5201.046
    
    [GRAPHIC] [TIFF OMITTED] T5201.047
    
    [GRAPHIC] [TIFF OMITTED] T5201.048
    
    [GRAPHIC] [TIFF OMITTED] T5201.049
    
    [GRAPHIC] [TIFF OMITTED] T5201.050
    
    [GRAPHIC] [TIFF OMITTED] T5201.051
    
    [GRAPHIC] [TIFF OMITTED] T5201.052
    
    [GRAPHIC] [TIFF OMITTED] T5201.053
    
    [GRAPHIC] [TIFF OMITTED] T5201.054
    
                                     <all>
</pre></body></html>
